<html>
<title> - ENDING THE SCHOOL-TO-PRISON PIPELINE</title>
<body><pre>[Senate Hearing 112-848]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-848

 
                  ENDING THE SCHOOL-TO-PRISON PIPELINE

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               ----------                              

                           DECEMBER 12, 2012

                               ----------                              

                          Serial No. J-112-95

                               ----------                              

         Printed for the use of the Committee on the Judiciary

                  ENDING THE SCHOOL-TO-PRISON PIPELINE




                                                        S. Hrg. 112-848

                  ENDING THE SCHOOL-TO-PRISON PIPELINE

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON CONSTITUTION,
                     CIVIL RIGHTS AND HUMAN RIGHTS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 12, 2012

                               __________

                          Serial No. J-112-95

                               __________

         Printed for the use of the Committee on the Judiciary





                  U.S. GOVERNMENT PRINTING OFFICE
86-166                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d0b7a0bf90b3a5a3a4b8b5bca0feb3bfbdfe">[email&#160;protected]</a>  


                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 CHUCK GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
CHUCK SCHUMER, New York              JON KYL, Arizona
DICK DURBIN, Illinois                JEFF SESSIONS, Alabama
SHELDON WHITEHOUSE, Rhode Island     LINDSEY GRAHAM, South Carolina
AMY KLOBUCHAR, Minnesota             JOHN CORNYN, Texas
AL FRANKEN, Minnesota                MICHAEL S. LEE, Utah
CHRISTOPHER A. COONS, Delaware       TOM COBURN, Oklahoma
RICHARD BLUMENTHAL, Connecticut
            Bruce A. Cohen, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director
                                 ------                                

    SUBCOMMITTEE ON THE CONSTITUTION, CIVIL RIGHTS AND HUMAN RIGHTS

                    DICK DURBIN, Illinois, Chairman
PATRICK J. LEAHY, Vermont            LINDSEY O. GRAHAM, South Carolina
SHELDON WHITEHOUSE, Rhode Island     JON KYL, Arizona
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TOM COBURN, Oklahoma
       Joseph Zogby, Democratic Chief Counsel and Staff Director
                  Walt Kuhn, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                  STATEMENTS OF COMMITTEE MEMBERS Page


Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     3
    prepared statement...........................................   111
Durbin, Hon. Dick, a U.S. Senator from the State of Illinois.....     1
    prepared statement...........................................   113
Blumenthal, Hon. Richard, a U.S. Senator from the State of 
  Connecticut....................................................     5

                               WITNESSES

Witness List.....................................................    39
Scott, Hon. Bobby, a Representative in Congress from the State of 
  Virginia.......................................................     5
    prepared statement...........................................    41
Davis, Hon. Danny, a Representative in Congress from the State of 
  Illinois.......................................................     7
Delisle, Ms. Deborah, Assistant Secretary, Office of Elementary 
  and Secondary Education, U.S. Department of Education, 
  Washington, DC.................................................     9
    prepared statement...........................................    45
Hanes, Ms. Melodee, Acting Administrator, Office of Juvenile 
  Justice and Deliquency Prevention, Office of Justice Programs, 
  U.S. Department of Justice.....................................    12
    prepared statement...........................................    58
DeWine, Hon. Michael, Attorney General for the State of Ohio, 
  Columbus, Ohio.................................................    21
    prepared statement...........................................    67
Dianis, Ms. Judith A. Browne, Co-Director, Advancement Project, 
  Washington, DC.................................................    22
    prepared statement...........................................    80
Ward, Mr. Edward, Blocks Together, Dignity in Schools Campaign, 
  Chicago, Illinois..............................................    25
    prepared statement...........................................   105
Coulson, Mr. Andrew J., Director, Cato Institute Center for 
  Educational Freedom, Washington, DC............................    27
    prepared statement...........................................    98
Teske, Hon. Steven, Chief Judge, Juvenile Court of Clayton 
  County, Georgia, Jonesboro, Georgia............................    29
    prepared statement...........................................    71

                        QUESTIONS FOR WITNESSES

Questions submitted by Senator Al Franken for Hon. Deborah 
  Delisle, Ms. Melodee Hanes, and Hon. Steven Teske..............   115

                         QUESTIONS AND ANSWERS

Responses of Hon. Steven Teske to questions submitted by Senator 
  Franken........................................................   118
Responses of Hon. Deborah Delisle to questions submitted by 
  Senator Franken................................................   122
Responses of Ms. Melodee Hanes to questions submitted by Senator 
  Franken........................................................   131

                MISCELLANEOUS SUBMISSIONS FOR THE RECORD

Advocates for Children and Youth; statement......................   136
Advocates for Children's Services, Legal Aid of North Carolina; 
  statement......................................................   139
Advocates for Justice and Education, Inc.; statement.............   148
Alabama Youth Justice Alliance (AYJA); statement.................   152
Alliance for Excellent Education; statement......................   154
American Bar Association; statement by Laurel G. Bellows, 
  President......................................................   156
American Federation of School Administrators, AFL-CIO; statement 
  by Diann Woodard, President....................................   163
American Federation of Teachers; statement.......................   164
Anti-Defamation League; statement................................   166
Boston Parent Organizing Network (BPON); statement...............   169
Statement of Roger Dickinson, California State Assembly 
  Assemblymember, 7th District...................................   170
California Chief Justice Tani G. Cantil-Sakauye; statement.......   176
The Campaign for the Fair Sentencing of Youth; statement.........   179
Campbell County School District #1, Gillette, Wyoming; statement.   181
Center for Applied Special Technology (CAST); statement..........   183
Center for Children's Advocacy; statement........................   190
Center for Community Alternatives, Inc.; statement...............   193
Center for Law and Education; statement..........................   202
Center for Law and Education; appendix...........................   203
Charles Hamilton Houston Institute for Race and Justice; 
  statement......................................................   204
Chicago Lawyers' Committee for Civil Rights Under Law, Inc., 
  statement......................................................   211
Child Care Association of Illinois; statement....................   216
Children's Defense Fund, Washington, DC; statement...............   219
Children's Law Center, Inc., Lexington, Kentucky; statement......   230
Children's Rights Clinic, Southwestern Law School; statement.....   241
Christine Agaiby, JD, University of Northwestern Law School; 
  statement......................................................   244
Citizens for Juvenile Justice (CFJJ), Boston, Massachusetts; 
  statement......................................................   246
City of Santa Monica, California, Department of Community and 
  Cultural Services; statement...................................   253
Coalition for Juvenile Justice, Washington, DC; statement........   255
Community Conferencing Center, Baltimore, Maryland; statement....   262
Congressman Robert C. ``Bobby'' Scott; appendix..................   265
Connecticut Juvenile Justice Alliance, Bridgeport, Connecticut; 
  statement......................................................   268
Council of Parent Attorneys and Advocates, Inc. (COPAA), Towson, 
  Maryland; statement............................................   274
Council of State Governments Justice Center; statement...........   278
Countywide Family Development Center, Inc., Laurel, Mississippi; 
  statement......................................................   288
DC Lawyers for Youth (DCLY); statement...........................   290
Dignity in Schools Campaign; statement...........................   295
Disability Rights Education and Defense Fund, Inc. (DREDF); 
  statement......................................................   300
Disability Rights Washington; statement..........................   309
District Attorney Don Quick, Seventeenth Judicial District, 
  Brighton, Colorado; statement..................................   313
Education Law Center; statement..................................   324
Family Court of the State of Delaware; statement.................   327
Fight Crime: Invest in Kids; statement...........................   329
Fighting for Our Right to Children's Education (F.O.R.C.E.); 
  statement......................................................   333
Florida State Conference of the NAACP; statement.................   337
Gay, Lesbian, and Straight Education Network (GLSEN); statement..   340
Gay-Straight Alliance Network (GSA Network); statement...........   345
Ms. Geeta N. Kapur, Attorney and Counselor at Law, Durham, North 
  Carolina; statement............................................   350
Georgia Appleseed Center for Law and Justice; statement..........   361
Georgia Safe Schools Coalition; statement........................   369
Harlem Children's Zone and Harlem Children's Zone Promise Academy 
  Charter Schools; statement.....................................   371
Health and Disability Advocates, Chicago, Illinois; statement....   379
Howard University Graduate and Professional Students; statement..   387
Human Rights Defense Center; statement...........................   390
Illinois Juvenile Justice Commission; statement..................   399
Judge David L. Bazelon Center for Mental Health Law; statement...   400
Judge Patricia Koch; statement...................................   406
JustChildren, Legal Aid Justice Center; statement................   408
Justice for Families: Families Unlocking Futures; statement......   412
Juvenile Justice Coalition of Minnesota; statement...............   417
Juvenile Justice Initiative, Evanston, Illinois; statement.......   426
Juvenile Justice Project of Louisiana (JJPL); statement..........   432
Juvenile Law Center; statement...................................   434
Kentucky Protection and Advocacy; statement......................   440
Labor/Community Strategy Center; statement.......................   445
Lambda Legal: Making the Case for Equality; statement............   448
Lawyers' Committee for Civil Rights Under Law; statement.........   454
Learning Disabilities Association of America; statement..........   462
Legal Assistance Foundation (LAF); statement.....................   463
Mansfield Institute for Social Justice and Transformation at 
  Roosevelt University; statement................................   469
Maryland Disability Law Center (MDLC); statement.................   473
Massachusetts Advocates for Children; statement..................   477
Michigan Protection and Advocacy Service, Inc.; statement........   478
Minneapolis, Minnesota, Mayor R.T. Rybak; statement..............   482
Minnesota Juvenile Justice Advisory Committee; statement.........   486
Mississippi State Conference NAACP; statement....................   488
NAACP; statement.................................................   490
NAACP Legal Defense and Educational Fund, Inc.; statement........   494
National Association of School Psychologists; statement..........   499
National Association of School Resource Officers (NASRO); 
  statement......................................................   504
National Center for Fair and Open Testing (FairTest); statement..   514
National Center for Learning Disabilities; statement.............   518
National Disability Rights Network; statement....................   519
National Education Association (NEA); appendix...................   524
National Education Association (NEA); statement..................   527
National Juvenile Justice Network; statement.....................   532
National Technical Assistance Center for Positive Behavioral 
  Interventions and Supports (PBIS Center); statement............   539
National Urban League; statement.................................   544
National Women's Law Center; statement...........................   550
Niroga Institute; statement......................................   554
Ohio Poverty Law Center (OPLC); statement........................   564
Open Society Policy Center (OSPC); statement.....................   566
Parents United for Responsible Education (PURE); statement.......   573
Parents Organized to Win, Educate, and Renew--Policy Action 
  Council (POWER-PAC); statement.................................   580
Professor Aaron Kupchik, University of Delaware; statement.......   583
Professor Joseph B. Tulman, Institute Director, Took Crowell 
  Institute for At-Risk Youth; statement.........................   586
Project NIA; statement...........................................   595
Public Counsel Law Center and CADRE; statement...................   602
Racial Justice Initiative of TimeBanks USA; statement............   610
Redeploy Illinois; statement.....................................   613
Restorative Schools Vision Project; statement....................   630
Samantha Buckingham; statement...................................   633
Representative sample: students, youth organizers, parents and 
  other family members, teachers, school administrators, juvenile 
  court personnel, and others....................................   642
Samuel DeWitt Proctor Conference, Inc.; statement................   679
Santa Monica-Malibu Unified School District; statement...........   682
Schott Foundation for Public Education; statement................   683
Schubert Center for Child Studies, Case Western Reserve 
  University; statement..........................................   690
South Carolina Appleseed Legal Justice Center; statement.........   696
Southern Poverty Law Center (SPLC); statement....................   701
Southwest Minnesota Private Industry Council; statement..........   711
Student Advocacy Center of Michigan; statement...................   718
Texas Appleseed; statement.......................................   719
Texas Public Policy Foundation; statement........................   729
The California Endowment; statement..............................   739
The Civil Rights Project (UCLA); statement.......................   749
The Equity Project, Indiana University; statement................   787
The National African American Drug Policy Coalition, Inc.; 
  statement......................................................   789
United States Commission on Civil Rights; statement..............   799
United States Commission on Civil Rights; appendix I.............   800
United States Commission on Civil Rights; appendix II............   823
VOYCE: Statement of Emma Tai, VOYCE Coordinator..................   827
VOYCE: Statement of Maria Degillo, VOYCE Organizer...............   831
W. Haywood Burns Institute; statement............................   835
Youth Advocate Programs, Inc.; statement.........................   839

                 ADDITIONAL SUBMISSIONS FOR THE RECORD

Submissions for the record not printed due to voluminous nature, 
  previously printed by an agency of the Federal Government, or 
  other criteria determined by the Committee, list:..............   847
ACLU, ``Ending the School-to-Prison Pipeline''...................   847
    http://www.aclu.org/files/assets/
      aclu_statement_for_sjc_subcomm_
      hearing_on_the_school_to_prison_pipeline_12_2012.pdf.......   847
Vera Institute Testimony.........................................
    http://www.vera.org/sites/default/files/resources/downloads/
      michael-jacobson-testimony-school-to-prison-pipeline.pdf...   847


                  ENDING THE SCHOOL-TO-PRISON PIPELINE

                              ----------                              


                      WEDNESDAY, DECEMBER 12, 2012

                               U.S. Senate,
                  Subcommittee on the Constitution,
                            Civil Rights, and Human Rights,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2 p.m., in 
Room SH-216, Hart Senate Office Building, Hon. Richard J. 
Durbin, Chairman of the Subcommittee, presiding.
    Present: Senators Durbin, Leahy, Franken, and Blumenthal.

  OPENING STATEMENT OF HON. RICHARD J. DURBIN, A U.S. SENATOR 
                   FROM THE STATE OF ILLINOIS

    Chairman Durbin. This hearing of the U.S. Senate Judiciary 
Subcommittee on the Constitution, Civil Rights, and Human 
Rights will come to order, and today's hearing is entitled, 
``Ending the School-to-Prison Pipeline.''
    Good afternoon. My name is Dick Durbin. I am honored to be 
here with the Chairman of the Committee, Senator Pat Leahy. I 
chair the Subcommittee on the Constitution, Civil Rights, and 
Human Rights, and for those who are attending their first 
Congressional hearing, let me explain how we proceed.
    I will deliver a brief opening statement, then recognize my 
colleagues, starting with Senator Leahy. Next we will turn to 
witnesses for opening statements, and after their statements, 
Members of the Subcommittee will have some questions for the 
witnesses. I want to welcome those who have joined us in the 
hearing room, those watching the live online stream, and all 
those following the hearing on social media using the hashtag 
school, the number two, prison.
    We are pleased to have a large and enthusiastic audience 
for today's hearing. It demonstrates the timeliness and 
importance of this issue. At the outset, I want to note that 
the rules of the Senate prohibit outbursts, clapping, or 
demonstrations of any kind at a public hearing. There was so 
much interest in today's hearing that we moved to this larger 
room. If anyone could not get a seat in the hearing room, we 
have an overflow room with a live video feed. That room is on 
the fifth floor of this building, Hart Room 562.
    This is the first ever congressional hearing on what is 
called ``the school-to-prison pipeline.'' In the past, this 
Subcommittee examined other troubling aspects of our criminal 
justice system such as solitary confinement and racial 
profiling. Today, we discuss another trend. For many young 
people, our schools are increasingly a gateway to the criminal 
justice system. What is especially concerning about this 
phenomenon is that it deprives our kids of their fundamental 
right to an education.
    Beginning in the 1990s, concerns about school violence, 
some of them very rightful concerns, and a growing awareness of 
bullying led many schools to hire police and institute zero-
tolerance policies. This resulted in a dramatic increase in 
suspensions, expulsions, and even in-school arrests for 
misbehavior that had been judged to that point to be rather 
normal for school children.
    This school-to-prison pipeline has moved scores of young 
people from classrooms to courtrooms. A schoolyard fight that 
used to warrant a visit to the principal's office can now lead 
to a trip to the booking station and a judge. Sadly, there are 
schools that look more like prisons than places for children to 
learn and grow. Students pass through metal detectors and 
police roam the halls.
    Suspensions, expulsions, and in-school arrests lead to kids 
being out of the classroom and a troubling increase in the 
number of young people sent to the juvenile justice system. 
According to one leading study, students who were suspended 
were twice as likely to repeat a grade and three times as 
likely to be involved with the juvenile justice system. Once 
kids enter that system, they are more likely to fail in school, 
which in turn increases their chances for arrest in the future. 
This is a cycle with increased public safety risks for everyone 
in the community, and the pipeline is expensive. The costs of 
policing schools and unnecessarily housing juveniles in 
detention are enormous.
    The racial disparities in this issue are stark. Nationally, 
African American students are three times more likely to be 
suspended and four times more likely to be expelled than their 
white peers, and more than 70 percent of students arrested in 
schools are African American or Latino.
    What is more, the disparities extend beyond race. 
Nationally, students with disabilities are suspended at more 
than twice the rate of students without disabilities, and gay, 
lesbian, bisexual, and transgender youth are more likely to be 
disciplined and arrested than their peers.
    Let me be clear. We cannot blame teachers and school 
administrators for this pipeline. Teachers have one of the 
hardest, and in many ways least appreciated, jobs in America. 
We have got to give them the tools, the training, and the 
resources to keep our schools safe. With ever-shrinking 
resources, many public schools are just overwhelmed.
    I remember when Derrion Albert--I am sure Congressman Davis 
remembers this--was killed near his high school on the South 
Side of Chicago in 2009. It was a tragedy for his community and 
the entire city. In the aftermath of tragedies like that, our 
first instinct is to protect, and our number one priority has 
to be keeping our kids safe. The challenge is how to accomplish 
this without overdisciplining students into failure.
    Today our witnesses will explain how we can meet this 
challenge. Around the country, students, judges, educators, and 
police have instituted some really creative reforms. They have 
made our schools and communities safer, saving millions of 
dollars in reduced incarceration costs and investing in a 
better future for our kids.
    My home state of Illinois is part of this movement. 
Redeploy Illinois, a bipartisan initiative, helps counties 
provide comprehensive services to at-risk youth. For an annual 
cost of $2.4 million, participating counties have reduced 
juvenile detention rates by more than 50 percent, saving the 
state $40 million. And Chicago Public Schools are also taking 
steps to address the pipeline, reducing the length of automatic 
suspensions, encouraging what is known as restorative justice, 
which involves fellow students mediating conflicts.
    Just this summer, the CPS system announced a brand-new 
Student Code of Conduct to promote positive learning 
environments and limit unnecessary disciplinary action. 
Yesterday I spoke with our new CPS CEO, Barbara Byrd Bennett, 
and I am committed to working with her to build on these 
positive steps.
    I look forward to hearing more about the solutions to this 
problem during the course of this hearing, and now I want to 
recognize the Chairman of the full Committee, Senator Pat 
Leahy.

  STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM THE 
                        STATE OF VERMONT

    Chairman Leahy. Thank you, Chairman Durbin, and I 
appreciate you bringing the attention to this as you have in 
chairing the Constitution, Civil Rights, and Human Rights 
Subcommittee. You have had a series of hearings that have 
really spoken to what should be the conscience of our Nation. 
And the issue of whether we are creating a school-to-prison 
pipeline is something of pressing national importance, no 
matter what part of the country you come from.
    I look forward to working with you on a number of hearings, 
including questions of sentencing and the way we sentence 
people, the mandatory minimums and others. I think if anyone 
looks at today's New York Times, you see a 27-year-old woman 
for a rather minor crime, because of the laws, is given a life 
sentence. Oh, come on. What are we doing? Already, in our 
country, the United States has the highest reported rate of 
incarceration of any country. Any country. I mean, this is--
something is wrong here.
    I am concerned that too young people are being funneled 
into the criminal justice system, and I think everybody here 
knows that when they are, their problems only multiply. Anybody 
who has been a prosecutor knows the importance of holding 
criminals accountable. But we also have to know what kind of a 
society do we have, and when we are talking about young people, 
we should be thinking about the best way to teach them to 
become responsible, contributing members of society as adults, 
but also to rehabilitate them away from lives of crime. That 
makes our communities safer, not just saying a ``lock-them-all-
up'' attitude.
    Now, the Chairman has mentioned about young people from 
minority communities. By any standard, they are overrepresented 
in our juvenile justice and criminal justice systems. I have 
been fighting for decades because of my concern that too many 
runaway and homeless youth are still locked up for status 
offenses even though they did not commit any crime. I have 
consistently fought for new and effective juvenile justice 
legislation. I introduced the Juvenile Justice and Delinquency 
Prevention Reauthorization Act. I will reintroduce it in the 
next Congress. We will keep fighting for these things. This 
would refocus attention on prevention programs, trying to keep 
children from being in the criminal justice system in the first 
place.
    Senator Durbin is absolutely right. These children should 
not be in adult prisons, and our legislation will help with 
that, especially when you are talking about at-risk youth, many 
times needing mental or drug rehabilitation, not prison.
    The Reconnecting Homeless Youth Act reauthorized a critical 
Federal grant program to help States and local communities 
address the needs of runaway and homeless youth in both urban 
and rural areas, youth who sometimes end up in jail not having 
committed any crime. In fact, President Bush signed this 
bipartisan bill into law in October 2008. There is the Second 
Chance Act, which Senator Durbin has been a champion of that. 
Congressman Davis, you know yourself, sir, from what you have 
seen how important that is. These can help keep children from 
being enmeshed in the juvenile justice system.
    We had a hearing in August of this year that I chaired 
talking about rising prison costs. This just pointed out that 
people are being incarcerated longer and longer, increased 
costs, an enormous strain on Federal, State, and local budgets, 
and it has not made anybody safer. So we ought to be trying to 
find out ways to keep children out of the criminal justice 
system, not add to it.
    Mr. Chairman, I will put my full statement in the record. I 
apologize for the voice, but I wanted to be here at least for 
this part just to say how proud I am of Senator Durbin for 
doing this.
    You know, these are the things that really affect every 
community, whether they are in large States like Illinois, 
small States like Vermont, large cities, small towns. It 
affects us all. As a Nation, we can do better. More 
importantly, as a Nation, for the sake of our own soul, we have 
to do better.
    Thank you.
    [The prepared statement of Chairman Leahy appears as a 
submission for the record.]
    Chairman Durbin. Senator Leahy, thank you for being here 
and for your statement and for your leadership on the Judiciary 
Committee.
    Senator Lindsey Graham is my Ranking Republican Member.
    He has been fully cooperative in setting the agenda today 
but has a conflict and cannot attend this hearing. His staff is 
following it. He may have follow-up questions to our witnesses, 
but I want to personally thank Senator Graham for his personal 
interest.
    I also received an interesting phone call, which I will 
share with another colleague, from Senator-elect Chris Murphy 
of Connecticut, who expressed his interest in this issue as 
well. Soon he will be sworn in and an official part of the 
Senate, and I look forward to working with him to resolve some 
of the differences that we see during the course of this 
hearing.
    I would like to ask Senator Blumenthal, if he has an 
opening statement, I would give him that opportunity.

 STATEMENT OF HON. RICHARD BLUMENTHAL, A U.S. SENATOR FROM THE 
                      STATE OF CONNECTICUT

    Senator Blumenthal. Just a few words. Thank you to you, 
Senator Durbin, for your leadership and your vision and your 
very vigorous leadership on this issue, and particularly to 
Senator Leahy for his chairmanship of the Committee and 
encouraging this step.
    And to all of the folks who are here today, your expression 
of interest in this very impressive way, I think, gives us 
heart that real progress is possible. And it is necessary 
progress. The two opening witnesses that we have before us 
today, I not only thank you but express my admiration to you 
for your work in achieving progress.
    And I look forward to continuing on this Subcommittee. I am 
very proud to serve on it with you, Senator Durbin, and thank 
you very much for giving me this opportunity.
    Chairman Durbin. Thanks, Senator Blumenthal.
    Our first panel, we are honored to be joined by two Members 
of the House and good friends: Congressman Bobby Scott and 
Congressman Danny Davis. Each of them will have five minutes 
for an opening statement, and we will go in order of seniority.
    Congressman Bobby Scott has represented Virginia's Third 
District for almost 20 years. He serves on the House Committee 
on the Judiciary where he is the former Chair and current 
Ranking Member of the Crime Subcommittee. He is a long-time 
champion of civil rights and criminal justice reform. We have 
worked together in the past.
    Bobby, it has been a real joy for me to work with you on so 
many issues. Among many other efforts, I was pleased to work 
with you on the Fair Sentencing Act to finally reduce the 
sentencing disparity between crack and powder cocaine. I am 
sorry it did not reach the number we were looking for, but I 
think we made some progress. Perhaps we can visit that again 
sometime soon.
    Now, Congressman Scott, I will give you a chance to say a 
few words before I introduce my Illinois colleague.

  STATEMENT OF HON. BOBBY SCOTT, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VIRGINIA

    Representative Scott. Thank you very much, Mr. Chairman, 
Mr. Blumenthal, Chairman Leahy. I want to thank you for 
developing this hearing and for providing me with an 
opportunity to testify. I also want to thank you for your long 
record in human and civil rights, especially the issues that 
you mentioned.
    I am happy to be here with my colleague from Illinois, Mr. 
Davis, who is testifying. We have been working in a bipartisan 
manner with our House colleagues to address the topic of 
today's hearing, the school-to-prison pipeline or, as the 
Children's Defense Fund calls it, ``the cradle-to-prison 
pipeline.''
    The school-to-prison pipeline arises when overly harsh, 
nondiscretionary school discipline practices such as zero 
tolerance policies are applied to address even minor 
misbehavior through harsh disciplinary actions that are 
ineffective and often counterproductive. Research shows that 
these get-tough approaches to discipline not only reinforce bad 
behavior, but set up a progression from disciplinary 
proceedings to suspensions, expulsions, arrests, juvenile or 
criminal proceedings, jail, and then prison.
    Minority students are much more likely to be subject to the 
pipeline than white students who commit similar infractions, 
and students with disabilities are more likely to receive one 
or more out-of-school suspensions than those without 
disabilities. Not surprisingly, there is a high correlation 
between harsh school discipline and school dropout. If a 
student is not doing well in school and is acting out, the last 
thing the student needs is to be put out of school and end up 
at home or hanging out in the streets with no supervision and 
nothing constructive to do.
    As a result of the choices to use counterproductive school 
disciplinary strategies as well as codification of ineffective 
slogans and sound bites, the United States leads the world in 
incarceration of its children. I passed out, Mr. Chairman, a 
chart that shows where we are, just off the chart in terms of 
juvenile incarceration. The minority rate is even worse. In 
D.C., 98 percent of the incarcerated juveniles are minorities.
    The juvenile justice part of the school-to-prison pipeline 
is a feeder system for the adult incarceration where we also 
lead the world by far. We have a chart that shows the 
incarceration rate, number one in the world at over 700 per 
100,000, and the minority rates just off the chart. These 
numbers are particularly egregious because 700 per 100,000 is 
way over what the Pew Research Center shows: 350 per 100,000, 
diminishing returns; anything over 500 is actually 
counterproductive, meaning that they contribute more to crime 
than reducing crime.
    It is clear that we need more than ever for our schools to 
be change agents for our students who are at risk of falling 
into the school-to-prison pipeline. The approach must be 
comprehensive and evidence based, starting with teen pregnancy 
prevention to reduce the number of babies born into 
dysfunctional families, prenatal care to reduce the incidence 
of mental retardation and learning disabilities, nurse visits 
and parental training to reduce child abuse and neglect, 
preschools so that children can start school ready to learn. In 
addition, we need policies which include school-wide positive 
behavior supports and programs that encourage college 
attendance so that we can replace the cradle-to-prison pipeline 
with a cradle-to-college-and career pipeline.
    Comprehensive strategies work. They not only reduce crime 
and other social pathology like teen pregnancy, but they also 
save more money than they cost. The Youth Promise Act follows 
this approach, and we would hope that you would give that 
consideration.
    Now, the question of can we afford these initiatives. The 
Pew study shows that incarceration beyond 500 per 100,000 is 
counterproductive, and if we were to reduce the African 
American rate, which is over 2,000 per 100,000, down to that 
level, we would have more than enough savings to fund any 
programs that we want. In fact, the chart on the back shows the 
arithmetic, that if you put the counterproductive incarceration 
money targeted to at-risk children, you could spent $5,000 per 
child every year. In ten states, that number is almost $10,000 
per child per year that you are wasting in counterproductive 
incarceration.
    So, in closing, the research and evidence shows that 
Frederick Douglass was right when he said, ``It is easier to 
build strong children than to repair broken men.'' We need to 
stop wasting money on counterproductive and ineffective slogans 
and sound bites. We need to invest in our children, and when we 
do, we will reduce crime and save money.
    I want to thank you for your leadership, Mr. Chairman.
    [The prepared statement of Representative Scott appears as 
a submission for the record.]
    Chairman Durbin. Thanks, Congressman Scott.
    Congressman Danny Davis has been in the U.S. House of 
Representatives since 1996 and before that was on the Cook 
County Board of Commissioners and on the Chicago City Council. 
He is the Ranking Member of the Subcommittee on Health Care, 
District of Columbia, Census, and the Archives. Danny has been 
a national leader when it comes to issues related to 
incarceration. He is the author of the Second Chance Act, which 
assists ex-offenders with reentry and helps prevent recidivism. 
I can tell you firsthand, I have been to his district, I have 
visited the churches and the centers where these ex-offenders 
come and try to rebuild a life. Danny Davis spends his life 
with them, helping them in that journey.
    Danny, I know this comes from the heart, so we appreciate 
your testimony today, and please proceed.

  STATEMENT OF HON. DANNY DAVIS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ILLINOIS

    Representative Davis. Thank you very much, Senator Durbin, 
Chairman Leahy, Senator Franken, Senator Blumenthal, and other 
Members of the Subcommittee. I applaud you for holding this 
historic hearing to discuss the problem of and potential 
remedies for the school-to-prison pipeline. Given that minority 
men disproportionately experience exclusionary discipline, I 
and my colleagues in the Congressional Black Caucus, including 
Representative Bobby Scott, have advocated vigorously for over 
a decade that the Federal Government should lead the effort to 
address the overdisciplining of youth, a key factor involved in 
the educational crisis of African Americans, and especially 
African American men.
    I am grateful for the opportunity to testify today and, 
again, Senator Durbin, I must thank you for your leadership in 
raising one of the most profound, most pernicious, and most 
complex but most elusive issues of our day and in examining how 
do we really get at the school-to-prison pipeline that has 
helped cause us to become the most imprisoned nation on the 
face of the Earth.
    We all know that education is absolutely central to making 
it in modern-day society, and we know that the more time spent 
being instructed, the more likely one will be able to learn. 
The less time spent in instruction, the less likely one will be 
able to learn.
    Whatever comes from this hearing, we will all owe you a 
tremendous debt of gratitude because you will have helped put 
the spotlight on one of America's most glaring but most elusive 
problems.
    We know that there are many important steps to address the 
problem of pushout. I briefly will highlight certain actions 
that I believe are critical based on my tenure in Congress and 
my work as Chair of the Education and Labor Task Force of the 
Congressional Black Caucus.
    To begin, we must view discipline as an indicator for 
identifying struggling schools and for directing supports to 
them. To do this, we must first collect and examine discipline 
data. The Congressional Black Caucus strongly praised the 
Administration's enhanced discipline variables within the Civil 
Rights Data Collection. The Civil Rights Data Collection is 
instrumental to understanding compliance with Federal civil 
rights laws. However, we must also use discipline data to 
direct supports to struggling schools prior to a civil rights 
violation.
    For this reason, I and other legislators champion bills to 
promote school-wide, evidence-based disciplinary systems such 
as positive behavior interventions and supports, social and 
emotional learning, and restorative justice programs. Research 
demonstrates that these programs improve school climate, 
academic performance, and student attendance, as well as to 
reduce discipline referrals, suspensions, expulsions, and out-
of-class time due to discipline referrals.
    Given that minority men disproportionately experience 
exclusionary discipline, we cannot truly understand pushout or 
the success of interventions without examining discipline data 
by the interaction of gender, race, and ethnicity. I am much 
more likely to be suspended not just because I am male or not 
just because I am African American, but because I am an African 
American male.
    We must focus on the early years as well. It is 
unacceptable that African American male preschoolers are 
expelled at almost nine times the rate of African American 
girls, with white preschool boys being expelled at only four 
times the rate of their female peers. Further, to ensure that 
all public schools address systematic discipline problems, the 
authorizing entities for charter schools should integrate 
discipline issues in a substantive way into charter reviews and 
renewal policies.
    The executive branch also plays an important role in 
promoting better discipline practices. The Supportive School 
Discipline Initiative, the collaboration between the Department 
of Justice and the Department of Education, represents a 
critical step.
    I thank you again for the opportunity to share in this 
historic--and when I say ``historic,'' I mean historic--and 
meaningful hearing. So I thank you and all of your colleagues 
for the interest that you have shown, and I do believe that 
this moves us to another level, and I thank you.
    Thank you very much.
    [The prepared statement of Representative Davis appears as 
a submission for the record.]
    Chairman Durbin. Congressman Davis, thank you very much. 
And you are both welcome to stay. We have two excellent panels 
here that I think will make a contribution toward this 
conversation. And then, afterwards, we need to get back 
together so that this just is not a nice talk, but that we end 
up, as you said, Congressman Scott, taking a look at specific 
legislation. Let us see what we can do here to address this 
problem. Thank you, both of you, for the leadership that you 
have shown. And I am going to move to the second panel now, but 
I invite you to stay if you wish. I know you are busy, too.
    Representative Davis. Thank you.
    Chairman Durbin. I will ask the witnesses for the second 
panel to please come to the table. They are representatives of 
the Obama Administration from the U.S. Departments of Justice 
and Education. We are about to hear more on the 
Administration's initiative to address the school-to-prison 
pipeline on the Federal level.
    On another matter related to the safety of our children, 
just this morning our National Task Force on Children Exposed 
to Violence presented its final recommendations. This is in 
addition to the Department of Justice's National Forum on Youth 
Violence Prevention, which is the kind of multidisciplinary 
approach we need to reduce youth violence and improve public 
safety. I am pleased Chicago was one of the first cities to 
join that forum.
    Now, each of our witnesses here will have five minutes for 
an opening statement. Their complete written statements will be 
part of the record, and we are going to start, as is the 
tradition of this Committee, by swearing in the witnesses. And 
after your testimony, questions will be asked, and some written 
questions may be sent your way. So if you would not mind 
standing, please, and raise your right hand?
    Do you affirm the testimony you are about to give before 
the Committee will be the truth, the whole truth, and nothing 
but the truth, so help you God?
    Ms. Delisle. I do.
    Ms. Hanes. I do.
    Chairman Durbin. Thank you. Let the record reflect that 
both witnesses have answered in the affirmative.
    Deborah Delisle is the Assistant Secretary for Elementary 
and Secondary Education at the U.S. Department of Education. 
She is responsible for Federal policy to assist State and local 
education agencies. She also serves as a principal advisor to 
Secretary Arne Duncan on all pre-kindergarten, elementary, and 
secondary education issues. Assistant Secretary Delisle has 
worked in the education field for 37 years, including tenure as 
the State Superintendent of Public Instruction in Ohio. Please 
proceed.

STATEMENT OF HON. DEBORAH DELISLE, ASSISTANT SECRETARY, OFFICE 
   OF ELEMENTARY AND SECONDARY EDUCATION, U.S. DEPARTMENT OF 
                   EDUCATION, WASHINGTON, DC

    Ms. Delisle. Thank you very much. Thank you for inviting me 
to participate in this hearing. I am pleased to be part of this 
really important conversation and, on behalf of Secretary 
Duncan, I want to thank you, Senator Durbin and Members of the 
Subcommittee, for convening a discussion on an issue that 
affects the educational and life outcomes of millions of youth 
across our Nation. Your leadership on this issue, Senator 
Durbin, is commendable.
    I also appreciated hearing from Congressman Scott and 
Congressman Davis on this important issue, and I certainly hope 
it is one that we will continue to have in the near future.
    I welcome the opportunity to share with you the 
Department's efforts to support all of America's children by 
keeping them in school, engaged in learning, and, most 
especially, out of the judicial system as well as prison. This 
is clearly an issue of grave concern for all of us.
    Over the past 18 months, the Department's efforts have been 
galvanized by findings from two distinct data collections: 
first, the 2011 Breaking Schools' Rules study, a longitudinal 
study by the Council of State Governments that included more 
than one million public school students in the State of Texas; 
and, second, the Department of Education's own 2012 Civil 
Rights Data Collection (CRDC). Together, these two pieces 
reveal three very disturbing trends, and while you have heard 
about these already, they bear repeating:
    First, there is an overreliance on suspensions, expulsions, 
and referrals to law enforcement as a means of managing student 
behavior;
    Secondly, the disproportionate impact of such practices on 
students of color, students with disabilities, and other 
subgroups; and last, the increased risk of juvenile justice 
involvement for students who are suspended or expelled.
    While many schools implement evidence-based supportive 
strategies to manage student behavior, it is clear that too 
many schools are overly reliant on discipline practices that 
remove students from schools. Based on data from the 72,000 
schools that participated in the last CRDC study, released last 
spring, we estimate that over three million students were 
suspended out of school during the 2009-10 school year. During 
that same timeframe, 108,000 students were expelled, and over 
240,000 students were referred to law enforcement.
    The Breaking Schools' Rules report helps place these 
figures into context. Nearly 60 percent of all Texas students 
studied were suspended or expelled at least once between 
seventh and 12th grade, and 15 percent of students were 
punished by suspension or expulsion 11 or more times during 
that same time period.
    It is also important to note that, according to research, 
the vast majority of such disciplinary actions are not related 
to guns, drugs, or violence; rather, they are used to 
discipline students for minor acts of misconduct, such as non-
attendance, disobedience, or classroom disruption.
    School discipline practices which unnecessarily remove 
students from their classrooms directly conflict with our goal 
of helping all students to achieve college and career 
readiness. And until more schools recognize the essential 
relationships interconnecting social, emotional, and behavioral 
skills and student achievement, and until more schools provide 
students with behavioral supports that directly address 
misconduct, we will not be successful in creating learning 
environments that are both safe and productive for all of 
America's children.
    We have demonstrated our commitment to improving climate 
and student supports in the Department's budget request and 
signature initiatives. For example, the sole competitive 
priority of the Race to the Top District Competition, a $400 
million investment, is designed to promote comprehensive, local 
reforms in our nation's schools and is devoted to integrating 
public and/or private resources to augment student and family 
supports that address the social, emotional, and behavioral 
needs.
    As we continue forward, we are looking closely at multi-
tiered behavioral frameworks, such as Positive Behavioral 
Interventions and Supports, to better inform our technical 
assistance as well as our financial supports. However we know 
that we must do more to ensure that school discipline practices 
improve for all of America's children. We are alarmed by the 
large disparities in the rate of disciplinary sanctions, 
particularly for students of color, students with disabilities, 
and male students. When African American students are more than 
three and a half times as likely to be suspended or expelled as 
their white peers, or students with disabilities are twice as 
likely to receive out-of-school suspensions as their non-
disabled peers, as they are today, it raises substantial 
concerns.
    These concerns are reflected in our Department's 
enforcement efforts and in the stories we have heard from the 
field, which demonstrate too often that students face 
discipline actions on the basis of their race.
    To give a specific example, an African American 
kindergartner was given a five-day suspension for setting off a 
fire alarm, while a white ninth grader in the very same 
district was suspended for one day for the same offense.
    To ensure that all students are treated equitably, as a 
Nation we need a multi-pronged strategy that encourages 
educators to proactively monitor their discipline practices for 
disproportionality, assess for root causes where 
disproportionality exists, and engage in a broad-based 
community effort to develop an action plan to root out 
discrimination in the administration of discipline.
    The Department's Office of Civil Rights has intensified its 
enforcement activities and data collection to ensure that 
students are not disciplined more severely or frequently 
because of their race, their color, or their national origin. 
From 2009 to 2012, OCR launched 20 proactive investigations in 
schools with significant racial disparities in discipline based 
on data from the most recent CRDC. In addition, OCR has 
dramatically expanded the Civil Rights Data Collection System, 
so that, for the 2011-12 data collection, the Department is 
currently collecting data from all school districts in the 
country--approximately 17,000 in all.
    There is evidence indicating that school discipline 
practices have consequences beyond the school yard, as has been 
noted previously. According to the Breaking Schools' Rules 
study, nearly half of the students who were disciplined 11 or 
more times were in contact with the juvenile justice system. In 
contrast, only two percent of the students who had no school 
disciplinary actions were in contact with the juvenile justice 
system.
    We also know that schools are critical partners for 
providing disconnected and vulnerable youth--such as homeless 
youth; children in foster care; trafficked youth; youth with 
mental, emotional, or behavioral disorders; children exposed to 
violence; and children of incarcerated parents--with the mental 
and behavioral supports that they need.
    The Department convened a November 19th summit of 80 
participants from all over the country, including Federal 
partners scholars, researchers and practitioners with 
specialized knowledge of education in criminal justice 
facilities, to review a draft correctional education strategy 
and provide feedback.
    We are very pleased to work in partnership with our 
colleague, Melodee Hanes, and her incredible staff in the 
Department of Justice, and I look forward to her sharing the 
work in which we have been engaged as partners.
    The challenge that lies before us is complex, as it 
requires careful consideration of seemingly competing factors. 
How do we keep our students safe while seeking school-based 
responses to misconduct? How do we transition school cultures 
into environments of support while addressing specialized needs 
often exhibited by our most challenged students? These are 
neither easy questions, nor are they simple to address. For 
sure, their answers lie in the best of our collective thinking 
and work and in the recognition that this is not a zero-sum 
game, because America's children deserve nothing less than our 
collective energies, our best thinking, and, most especially, 
our commitment to equity.
    [The prepared statement of Ms. Delisle appears as a 
submission for the record.]
    Chairman Durbin. Thank you, Secretary Delisle.
    Melodee Hanes serves as the Acting Administrator in the 
U.S. Department of Justice's Office of Juvenile Justice and 
Delinquency Prevention. She has worked as an assistant county 
attorney in both Montana and Iowa. As a prosecutor, Ms. Hanes 
handled countless child abuse cases. She has taught at Drake 
University Law School and the District Attorneys National 
Advocacy Center.
    Ms. Hanes, please proceed.

STATEMENT OF MS. MELODEE HANES, ACTING ADMINISTRATOR, OFFICE OF 
JUVENILE JUSTICE AND DELINQUENCY PREVENTION, OFFICE OF JUSTICE 
      PROGRAMS, U.S. DEPARTMENT OF JUSTICE, WASHINGTON, DC

    Ms. Hanes. Thank you, Chairman Durbin and distinguished 
Members of this Subcommittee. Thank you so much for this 
opportunity to talk to you today about this critically 
important issue.
    The problem, to state it very succinctly, is the pervasive 
use of court referrals as a means of disciplining kids in 
school. I want to share with you the work that the Department 
of Justice is doing, along with our partners at the Department 
of Education, to address this very serious problem. But before 
I begin, I want to acknowledge a special guest that I brought 
with me today: Bob Listenbee, who is the co-chair of the 
Attorney General's Task Force on Children Exposed to Violence. 
We have just come from the meeting of the Coordinating Council, 
as you referenced, and the recommendations were made to the 
Attorney General by this very important task force to address 
the pervasive problem of children exposed to violence in the 
Nation. These recommendations are significant and will have a 
major impact, including on our topic we are discussing today. 
So in the coming days, we will be disseminating the report to 
Members of Congress.
    As Assistant Secretary Delisle stated, a staggering number 
of children every year are suspended or expelled from public 
school. Millions of them. I do not know about you, but when I 
was in high school, that was the exception, and it was not the 
norm.
    Most remarkably, as she referenced, the Texas study found 
that only three percent of those suspensions and expulsions 
were for serious violations, such as drug use or gun 
possession, and a vast majority were for discretionary or minor 
offenses, such as truancy, dress code violations, classroom 
disruptions. As Secretary Delisle pointed out, the Texas study 
indicated that 15 percent of those million children were 
suspended 11 or more times, and what was important about the 
study, that 15 percent, those were children of color, and those 
were children with disabilities.
    The other thing that the study did, interestingly, was 
compare the school records with juvenile justice records. Those 
15 percent were the kids that ended up in the juvenile justice 
system.
    So why is that correlation important, and why do I bring it 
your attention today--the issue of kids referred to the 
juvenile justice system from schools? It is important because 
in the research we have done and accumulated over the 40 years 
that OJJDP has been around, we have learned that the minute a 
child sets foot in the juvenile justice system, their chances 
of becoming an adult offender go up 50 percent. As soon as they 
enter the juvenile justice system, their chances of completing 
their education, their chances of getting a good job, their 
chances in life in general diminish significantly.
    We have learned that finding successful alternatives to 
referring kids to court or locking them up leads to much better 
outcomes for these children at much less expense. On the 
average, it costs about $10,000 a year to educate a child. The 
average cost to lock up a child in the United States is $87,000 
a year.
    As soon as the Attorney General learned of this Texas 
study, he called for immediate action, and that was the 
beginning of the Department of Justice partnership with the 
Department of Education. And it was the birth of the Supportive 
School Discipline Initiative. The initiative has four primary 
goals:
    First, to develop a consensus among the experts about what 
the best practices and policies are that we know of that can be 
implemented and what we do not know--what do we need to find 
out.
    Second, to collaborate on research and data between the 
Department of Justice and the Department of Education.
    Third, we need to work together to develop guidance for 
local school districts and states to help them engage in the 
best practices that do not violate the civil rights of these 
children.
    And, fourth, our initiative emphasizes the need to educate 
the public about the necessity to have appropriate discipline 
procedures and alternatives to juvenile court referrals.
    The Department of Justice and our Federal partners are 
working very diligently to support this initiative, but I would 
be remiss if I did not talk to you about one other important 
partner that came and knocked at our door, literally, when we 
began this initiative. Private philanthropic enterprises, 
specifically Atlantic Philanthropies, knocked at our door as 
soon as we announced the initiative and asked if they could 
participate. But, frankly, to my surprise, it was not just, 
``Can we participate and be at the table? '' It was, ``Can we 
contribute money? '' That does not happen to the Federal 
Government very often.
    [Laughter.]
    Ms. Hanes. And so we were glad to bring this new partner to 
the table and invest with them, and I have to tell you, it has 
created in our world a whole new paradigm of public-private 
partnerships to achieve the same outcomes.
    So, like Education, we are very pleased that we have been 
able to accomplish a lot in 18 months. We are up and moving on 
the consensus initiative, and that report will be final by 
December 2013. At OJJDP, we invested $1.5 million last year in 
research to support looking at best practices and the 
correlation between discipline and juvenile court referrals.
    We have also been working diligently with the Department of 
Education to develop the guidance for local school districts 
and States. And, finally, we have steered other resources that 
we have, like our formula dollars. We have tried to steer those 
to States that engage in programs that find alternatives to 
detention and specifically those that reduce disproportionate 
minority impact on children of color and children with 
disabilities. For example, the Memphis City Schools used our 
OJJDP formula funding to implement a program to divert kids 
from school-to-court referrals--instead of sending them to 
court, finding after-school programs. As a result, they have 
reduced the number of youth transported to juvenile court by 52 
percent. And I need to tell you, 85 percent of those kids that 
had been referred were kids of color.
    The State of Connecticut has made similar strides with 
their program aimed at reducing court referrals from schools 
and have reduced their referrals for African American youth by 
60 percent. They have reduced their court referrals for Latin 
American youth by 64 percent.
    OJJDP was created by Congress in 1974 to provide national 
leadership to the States on juvenile justice. So we feel it is 
our mission to ensure that when children come into contact with 
the juvenile justice system--first of all, it is rare that they 
do. But, second, when they do, it is fair; and, third, when 
they leave the system, they are better off for it. It is 
beneficial to them for having touched the system.
    We have a vision at OJJDP of a nation of children that are 
healthy, that are educated, and that are free from violence. 
And it is our belief that this partnership and this Supportive 
School Discipline Initiative seeks to fulfill that mission and 
that vision.
    Thank you so much for your time and attention.
    [The prepared statement of Ms. Hanes appears as a 
submission for the record.]
    Chairman Durbin. Thanks for your testimony. As Senator 
Franken and Senator Blumenthal could probably tell you, as we 
go around, education is one of those issues that everyone 
claims some expertise. We have all been in classrooms, and we 
all have memories and experiences that we think are instructive 
and helpful. And so I am not going to dwell on what it was like 
in the good old days when I went to school other than to say I 
many times would have welcomed a police officer rather than a 
ruler-wielding nun in my class.
    [Laughter.]
    Chairman Durbin. At least I think I would have.
    But here is what I would like to ask and really get down to 
basics. How have things changed? Why have they changed? What is 
the difference? I mean, is it a difference in the students and 
parents and family relationships with teachers? Is it a 
difference in the threat to safety and order in schools which 
now includes the possibility of firearms, bullying, a lot of 
things that were not happening at least to the degree that they 
seem to be happening now? Is it a difference in the resources 
in schools where, stretched to the limit, the teachers say, 
``Listen, I can either make a call to the police department or 
just let this continue, because I do not have the resources to 
deal with this, a social worker or any program to refer this 
student to'' ?
    What has changed here that has led to this dramatic change 
in the reported numbers of referrals of students from schools 
into the criminal justice system?
    Ms. Delisle. Senator Durbin, I think I probably went to the 
same school and remember the same ruler that you had, or, at 
least, I remember it being used too often. I think that ruler 
kind of demonstrates the big difference between then and now 
because that is not the type of classroom environment that is 
either supported or even tolerated, if you will, by parents and 
even by students. I think it is a really complex issue.
    But one thing I want to really emphasize here is that we 
know so much more about students' social and emotional well-
being. When I think back to my own educational trajectory, if 
you will, and I think about classrooms, I can think of very 
distinct individuals in my school who probably had some very 
severe social and emotional issues, and I don't remember 
clearly people dealing with those. So the students were put 
out. So I do not know if students were put out less than they 
are now or students were just not going to school.
    But I do know that there is obviously a graver concern 
around the social and emotional well-being of students. But to 
that end, we have seen an increase certainly of students who 
come to school after witnessing or experiencing violence--and I 
think, you know, our meeting earlier today with the Department 
of Justice really brought to light the impact of violence on 
children and how they respond back, sometimes with violence 
themselves.
    There are more laws surrounding the protection of children. 
There are more laws around what can be done in a classroom or 
in a school. In some instances, there are fewer resources in 
schools. So when I think about having been a building principal 
as well as a superintendent, there were times when I had to 
make some very unfortunate budget reductions, and sometimes a 
guidance counselor or a social worker would have been cut as 
opposed to cutting a math teacher, for example.
    So I think it is a really complex issue, but I think it is 
one that we really need to address. I happen to be a big 
believer that what we offer to children tells them what it is 
that we value. So when we offer school climates that are 
conducive to being supportive of all students, that provide 
teachers with the tools necessary, such as positive behavior 
interventions and how to utilize those appropriately in 
schools, I think we are telling our children that we care 
enough about them to be proactive on the front end.
    Now, I think the good news is that there are many, many 
schools across this country who are really focusing on school 
climates and the importance of school climate in terms of 
helping kids to feel successful and comfortable.
    Chairman Durbin. Ms. Hanes, I just recalled an instance 
where one of the schools in Joliet, Illinois, had a local 
policeman who was there every day. That is not uncommon in many 
schools, particular in city schools. He was the best choice 
they could have had because he spent his weekends with the 
kids, taking them on field trips and really teaching them an 
attitude toward law enforcement they might not have ever had. 
So there can be a positive interaction, clearly, between the 
justice system and education.
    We know the abuses. Your group looks into them and reported 
on them today. But can you tell us how we can reconcile that 
and try to deal with these changes in circumstances that seem 
so stark?
    Ms. Hanes. They do seem quite stark. I think it might help 
to look back a little bit at history and how we have treated 
children in the criminal justice system over the decades. And 
one thing that I think is relevant to your past question as 
well as this is that in the 1990s, we saw a significant uptick 
in the number of arrests in juveniles in this country, and it 
was a combination of a lot of things, but primarily the belief 
that there was more violent crime and that there was a problem 
with youthful offenders, and ``tough on crime'' was the belief, 
the right answer. And we have learned since that time when 
there was a significant uptick and significant negative 
experiences with youthful offenders and law enforcement that 
those outcomes are not good. And I think we are learning 
cyclically again that that is not the answer to respond in 
schools.
    We at OJJDP have, in fact, supported many mentoring 
programs, for example, combining law enforcement and youth, 
whether it is sporting programs or one-to-one mentoring 
programs specifically, to acclimate at-risk youth with the law 
enforcement world and demystify it and create a positive 
relationship and outcome. And I can tell you that we also have 
heard similarly good reports just like your Joliet police 
officer in many schools around the country. So we do not want 
to demonize school resource officers. We just want to see the 
best practices used and the best discipline practices.
    Chairman Durbin. Senator Franken.
    Senator Franken. I just want to thank you, Mr. Chairman, 
for holding this incredibly important hearing. You do this a 
lot.
    [Laughter.]
    Senator Franken. You use this Committee to raise awareness 
about issues that otherwise might not get the attention they 
deserve, and this issue deserves a tremendous amount of 
attention. And I want to thank both Congressmen Scott and Davis 
for their testimony and both of you.
    First, I want to share a story, if I could. There is a 
young man in Minnesota, from Wilmer, Minnesota, named Indiana--
like Indiana Jones, but that is not his--to protect Indiana's 
identity, that is not his last name, Jones.
    [Laughter.]
    Senator Franken. I think Indiana is fine with this. He was 
kind of on the wrong path in life. He was expelled from school 
twice. He had run-ins with the law. He was on probation. He had 
a bunch of outstanding fines. Things were not looking good for 
him. But Indiana managed to turn his life around before it was 
too late. He just needed some support, and he got it from 
public and private organizations in Wilmer, in his community. 
Indiana participated in the Southwest Minnesota Private 
Industry Council's Youth Program, which is a program for kids 
who are on probation. He got his GED. He completed a job 
training program. And now he is not getting into trouble 
anymore. And not only that, but he is working at least 40 hours 
a week as a successful tire technician at Prairie Pride in 
Marshall, Minnesota. He is good at his job, and he is enjoying 
it. And not only that, he is getting more education. He has 
enrolled in school to learn auto mechanics.
    We have a lot of problems, and I know this, in our 
educational and juvenile justice systems. We fail too many 
kids, kids who are expelled and suspended from school, and for 
every story like Indiana's, there are so many other tragic 
stories. But these stories do give me hope. A thousand kids in 
Minnesota participate in youth intervention programs every 
year, and I would ask unanimous consent to submit letters and 
testimony from some groups in my state who are working to stop 
this school-to-prison pipeline: the Minnesota Juvenile Justice 
Coalition, the Minnesota Juvenile Justice Advisory Committee, 
the city of Minneapolis, which has done a great job, the 
Southwest Minnesota Private Industry Council's Youth Program.
    Chairman Durbin. Without objection.
    [The information appears as a submission for the record.]
    Senator Franken. A couple things here. Representative Scott 
talked about the cradle-to-prison, and, Assistant Secretary 
Delisle, you are advisor to the Secretary on early childhood. 
Am I right?
    Ms. Delisle. Yes.
    Senator Franken. Boy, it seems like we know that this is 
something to catch earlier, and that the investment in early 
childhood--and I commend the Secretary for focusing on early 
childhood in the new Race to the Top stuff and the Promise 
Neighborhoods.
    What is the data on that? What is the data on kids who have 
a quality early childhood--education in terms of incarceration?
    Ms. Delisle. I do not really have that data available right 
here. We could certainly get that for you, Senator. I think the 
one thing that we are really grappling with right now is to 
accurately define the context of quality, and most especially 
defining high quality for early learning.
    But one of the things we do know is that students who are 
engaged as four-year-olds in high-quality preschool programs 
are far more likely to be successful in school. So I know one 
of the Secretary's deep priorities is to expand early learning 
across this country and have more available access to high-
quality programs for all four-year-olds. And, in fact, we have 
been working on a proposal for that on that very issue.
    One of the things that we are learning out of our early 
childhood Race to the Top grants, as you indicated, is how 
communities can be best organized to provide a wide array of 
services to students and their families, not just a straight 
academic program but a multi-tiered system to reach our most 
vulnerable children. So we could certainly get you the data on 
how many------
    Senator Franken. I would love that, because my 
understanding is that kids who come out of a quality early 
childhood program have a far lower rate of incarceration.
    Ms. Delisle. Yes.
    Senator Franken. And significantly so.
    [The information appears as a submission for the record.]
    Ms. Delisle. May I add one comment to that which I think is 
really critical? That is the importance of preparing all 
students to be successful in school. So many of those programs 
in which those children are engaged really focus on language 
acquisition, for example, and literacy skills. When students 
come into school and they feel like they can be ready to read, 
if they are not reading already, and they can count, they are 
far less likely to be behind their age mix or their 
counterparts, which also leads to students' dropping out of 
school or getting into trouble when they, in fact, can engage 
in the content in that classroom.
    Senator Franken. I want to follow that up a little bit in 
terms of, Ms. Hanes, you have talked violence and exposure to 
violence.
    Ms. Hanes. Yes.
    Senator Franken. Some of that exposure to violence is at 
home, and what I understand is that exposure to trauma--
Assistant Secretary Delisle is talking about sort of cognitive 
skills, but I am thinking about emotional skills and emotional 
trauma and what that does. And, you know, kids' witnessing 
violence, not necessarily directly being abused but witnessing 
their mom, and how much are we maybe so focused on academic and 
cognitive achievement that we are not focused enough on the 
emotional skills and emotional development that children need 
to be successful in school and in life. And, you know, what 
role--and the Assistant Secretary can weigh in on this. What 
extent does not having mental health professionals, not having 
social workers, not having counselors in the school to address 
this--because in Minnesota we have a ratio of 771 students per 
counselor, and the recommended ratio is about 250:1. Speak to 
that, if you might, and I would like to hear from both of you.
    Ms. Hanes. I can speak to the issue of children's exposure 
to violence, and that was precisely what the task force 
findings were today. Research has clearly indicated children 
exposed to violence, whether in the home, whether they are 
victims or they just witness it, whether it is in school or it 
is in the community, those children suffer trauma, and the 
evidence is conclusive that those children do not do as well. 
Physically, they tend to have more health care problems and 
medical maladies, but we also know that those children are 
significantly at risk for compromising their education ability, 
for mental health issues, and that they are at greater risk to 
enter the juvenile justice system.
    And what we heard this morning from this task force was we 
have to pay attention to that, not only to the early childhood 
development but to what trauma, if any, children have sustained 
and without intervention that begets violence. And so it 
clearly needs to be addressed simultaneously. We cannot look at 
these issues in a vacuum.
    Senator Franken. Before the Assistant Secretary gets to 
counselors and social workers, I just want to address that 
response, which is the Chairman talked about specific 
legislation. We have a piece called VAWA, the Violence Against 
Women Act, that I wish we would get passed in the House, 
because when you talk about exposure, children's exposure to 
violence, you know, it is really important to have transitional 
housing for women who are being abused, physically abused, so 
they can get out of the house and have a place, because 
sometimes they stay with their abuser because they have nowhere 
to go. So we have specific legislation that is desperately 
waiting to be passed in the House.
    Assistant Secretary.
    Ms. Delisle. Thank you, Senator. One of the things I really 
want to emphasize as well is that when we are talking about 
high-quality early school programs, preschool programs, we are 
also talking about developing the whole child, including the 
social and emotional components. And one of the things we have 
been working on really quite deeply with many States, 
particularly those in the Race to the Top Early Learning 
Challenge Grant States, is the development of kindergarten 
readiness assessments. So we will have far more knowledge about 
students who enter kindergarten and where they are at 
developmentally, not just from numeracy and literacy, for 
example, but where they are in their social and emotional well-
being as well. So I really want to emphasize that.
    You know, when I look at the numbers and the ratio, for 
example, of school counselors, as you mentioned, it is really 
determined by every single State. And I was always concerned as 
a district superintendent when I would look and think about the 
resources so vital to supporting that classroom teacher, 
because classroom teachers work really, really hard to meet the 
needs of their students. But, with increasing numbers of 
students in classrooms, they also do not always have the skills 
necessary such as counselors or social workers have.
    So it is very concerning to me to have one student to every 
800 or 900 counselors, and many, many schools do not have 
social workers as well.
    Senator Franken. If we had one student to every 800 
counselors, we would be in great shape.
    [Laughter.]
    Senator Franken. But my worry is the 800 kids to every 
counselor.
    Ms. Delisle. I am sorry.
    Senator Franken. I am sorry. That was kind of--I used to be 
in comedy.
    [Laughter.]
    Ms. Delisle. I remember. I apologize for that.
    Senator Franken. I apologize, too.
    Ms. Delisle. So 900 students to a single counselor. Nine 
hundred students to a single counselor is cause for concern. I 
apologize. I am not in comedy. But one of the things------
    Senator Franken. I know.
    [Laughter.]
    Senator Franken. Sorry. I could not resist.
    Ms. Delisle. Do you want me to keep my day job?
    Senator Franken. Keep your day job.
    Ms. Delisle. Keep my day job, OK.
    One of the things that we really have to work hard through 
our agency, especially with the Office of Safe and Healthy 
Students, is to get more schools understanding this multi-
level, community-based approach so that they are not just 
looking at what the resources are available in a school, but 
they are also looking at what resources are available in a 
community, so it becomes a community partnership with that 
school district.
    For example, in a school district in which I worked, there 
were often times when classroom teachers did not know what 
community supports were even possible for a family, so they did 
not have an idea of how to connect somebody to them. And so we 
have got to be better at doing that across our country in every 
single State and working with State departments of education, 
who work then with the local school districts to bring about 
what those supports are.
    In many of our grant programs, that is one of the things 
that we are really emphasizing, that it is a community-based 
approach; it just cannot happen in the classroom, and it just 
cannot happen within that school.
    Senator Franken. And that is what the Promise Neighborhoods 
do.
    Ms. Delisle. Yes.
    Senator Franken. So spectacularly.
    Ms. Delisle. Yes.
    Senator Franken. Thank you, Mr. Chairman. Sorry to go over 
my time.
    Chairman Durbin. Thanks, Senator Franken.
    I would say to both witnesses, there was a discussion about 
the Supportive School Discipline Initiative, and there is a 
report with guidance on school discipline practices that your 
Departments are developing. Will this guidance take the form of 
policy recommendations and guidelines to local jurisdictions? 
And can you give us an idea when this is going to be available?
    Ms. Hanes. The answer is yes, it will take the form of 
policy recommendations and guidelines. And I do not want to 
promise a date. I can tell you that we are working diligently 
with the two agencies, and hopefully in the next couple of 
months that will be available.
    Chairman Durbin. Great. Thank you both for your testimony. 
We appreciate it very much.
    Ms. Hanes. Thank you so much.
    Ms. Delisle. I appreciate the career counseling, too.
    Chairman Durbin. I would ask the second panel to please 
come to the table and join us. And I would like to report that 
our overflow room is standing room only. We thank you all for 
your patience in following this hearing. There are 260 people 
in this hearing room and over 150 in the overflow room. This is 
clearly a topic of great interest, and we thank you all for 
being here.
    If you would each remain standing, we will dispense with 
the first part. I have seen Senator DeWine administer the oath 
so often, and now he can be part of receiving one. If you would 
all please raise your right hand? Do you affirm the testimony 
you are about to give before the Committee will be the truth, 
the whole truth, and nothing but the truth, so help you God?
    Mr. DeWine. I do.
    Ms. Dianis. I do.
    Mr. Ward. I do.
    Mr. Coulson. I do.
    Judge Teske. I do.
    Chairman Durbin. Thank you all very much.
    It is great to see my friend and former U.S. Senator from 
Ohio, Mike DeWine, back before the Judiciary Committee. We came 
to the House of Representatives together a few years back, and 
many times over the years we have worked on a bipartisan basis 
on issues of human rights, from global AIDS to the humanitarian 
effort in Haiti. There is no Senator--there is no Senator--who 
has spent more time and dedicated more effort toward Haiti than 
Mike DeWine, and I appreciate it and thank you for your 
continuing interest.
    Former Senator DeWine has been serving as Ohio's 50th 
Attorney General since January 2011. He previously served 12 
years in the Senate, four terms in the U.S. House, and as 
Lieutenant Governor of Ohio.
    Attorney General DeWine, welcome back. The floor is yours.

STATEMENT OF THE HONORABLE MICHAEL DEWINE, ATTORNEY GENERAL FOR 
               THE STATE OF OHIO, COLUMBUS, OHIO

    Mr. DeWine. Mr. Chairman, Members of the Committee, thank 
you very much. It is great to be back, great to see you and 
Senator Franken. I must tell you, being on this side of the 
room is a little different than being on your side. It makes me 
a little more nervous, I think. It should. I understand that. I 
understand that. I noticed. Thank you, Senator, for reminding 
me of that.
    Mr. Chairman, I have listened to the testimony of the other 
witnesses so far, and I think I can probably have the most 
value added to this to go back when I was Lieutenant Governor 
under George Voinovich, and my job was to be in charge of the 
entire criminal justice agenda of the Voinovich administration. 
And when we took office--this was in 1991--we found that our 
Department of Youth Services, which is the State system where 
we sent the most problematic kids, was kind of in disarray and 
that, frankly, our whole juvenile system in Ohio was having 
real problems.
    Our State system, we had about 2,500 young people in it. We 
were at anywhere between 160 and 200 percent overcrowding. We 
did not have much programming, and part of the reason we did 
not have much programming is we were so overcrowded, we were 
just trying to deal with a number of people there.
    At the county level, in Ohio, we have really 88 systems. We 
have 88 counties, we have 88 juvenile judges, and each one runs 
their own court. At the county level, the juvenile judges did 
not really have the resources to deal with these young people. 
And many times they faced difficult choices, no good choice at 
all, and that is, a kid would get in trouble and they would put 
him on probation; then he would come back, put him on 
probation. At some point, they said, ``Well, what else are we 
going to do? '' And too often the local juvenile judge had no 
variations of options. Basically it was either send that kid to 
the State to be incarcerated and let the State worry about him 
or her, or put him back on probation. And, frankly, there was 
not a whole lot in between.
    The economic incentives were also all in one way. If they 
kept the kid at the local level and tried to deal with him or 
her, total cost was at the county level. If they sent him to 
the State, that total cost was for the State. So what do you 
think we got? We got 160 percent overcrowding, and it was a 
system that not only was a costly system, it was not a system 
that was really working very well. And so what we did is we 
came up with a solution. We got everybody together, and the 
other problem we had is our judges were mad at DYS and DYS was 
not happy with the judges, and no one was happy. And so we 
started putting meetings together. We put judges and the 
officials from DYS, and in essence, the judges said: You give 
us the money and we will handle most of these kids. We know how 
to deal with it. We know their families. We know them. They 
have been in our court before. But we do not have the resources 
to do the right programming.
    Long story short, we did it. The end result was that we had 
the money follow the child. Today we have about 550 kids in our 
State system, and I must tell you, those are the most 
problematic kids, and those are kids who probably in most cases 
clearly should not be at the local level. Very, very tough.
    But for the rest of them, they are being dealt with at the 
local level, and what that means is that the local judge can 
come up with what is appropriate. We like to think, Mr. 
Chairman, Members of the Committee, that our 50 States are the 
laboratories of democracy. We talk a lot about that. Even a 
book was written on that that I read a few years ago. We like 
to think in Ohio that our 88 counties are sort of the 
laboratories of experimentation as well and that one county can 
learn from another county.
    And what we found--and it should not have been a shock, 
because I started as an assistant prosecutor and dealt with a 
very, very good probate general court judge, Judge Hegler, a 
very innovative man. It should not have been a surprise to us, 
but what we found is when we let the money stay at the local 
level, sent that money actually back with that kid, these 
judges came up with some amazing programs. And it was programs 
that were tailored for that particular child. Some were 
residential, some were not residential. Some were intensive 
probation. A lot of them had significant educational components 
with them. We had Saturday schools, did all kinds of innovative 
things, and it worked very, very well.
    [The prepared statement of Mr. DeWine apears as a 
submission for the record.]
    Chairman Durbin. Thanks, Senator DeWine. I appreciate your 
testimony.
    Judith Browne Dianis is the co-director of the Advancement 
Project, a national civil rights organization that worked for 
years to end the school-to-prison pipeline. Previously, Ms. 
Browne Dianis was the managing attorney at the Washington, DC, 
offices of the NAACP Legal Defense and Educational Fund. I 
thought you looked familiar. She is a graduate of Columbia 
University School of Law. She testified before our Subcommittee 
last year at our first hearing on restrictive state voting 
laws.
    Ms. Browne Dianis, thank you for joining us, and please 
proceed.

STATEMENT OF JUDITH A. BROWNE DIANIS, CO-DIRECTOR, ADVANCEMENT 
                    PROJECT, WASHINGTON, DC

    Ms. Dianis. Thank you, Chairman Durbin and Members of the 
Committee. Thanks for the opportunity to be here today. And 
thank you, Chairman. Having testified before you on voting 
rights, I want to especially thank you for your commitment to 
civil rights issues.
    My name is Judith Browne Dianis. I am co-director of 
Advancement Project, a multi-racial civil rights organization. 
Since its inception in 1999, Advancement Project has been part 
of a movement to dismantle the school-to-prison pipeline. 
Youth, parents, and local groups have been at the forefront of 
this movement. They are here today in numbers. They come from 
Chicago. They are here from Mississippi, Philadelphia, New York 
City, Buffalo, Ohio, Michigan, Louisiana, DC, Georgia, 
Massachusetts, New Jersey, North Carolina. They are in the 
overflow room, and it is packed, from what I understand. They 
represent national coalitions called the Dignity in Schools 
Campaign and the Alliance for Educational Justice, and there 
are others here in support. Because of the work that they have 
been doing, the tide is starting to turn away from ineffective, 
exclusionary discipline and toward common-sense policies that 
work.
    In all the years that I have done this work, there is one 
particular case that stands out. Ja'eisha Scott was a five-
year-old kindergarten girl in Pinellas County, Florida. When 
her teacher ended a jelly bean-counting game, Ja'eisha did not 
want to stop the game. She threw a temper tantrum. When the 
teachers could not control her, they decided to call in police. 
They took her into a room where Ja'eisha sat quietly, finally. 
When three police officers entered into the room, they pulled 
the five-year-old girl out of her seat, pushed her against a 
desk, put her arms behind her back, put handcuffs on her. They 
took her out to a police cruiser and shackled her at her ankles 
where she was left for hours, crying, until her mommy came to 
pick her up.
    Ja'eisha is seared in my memory. We all want high-quality 
schools that care about youth and give them real opportunities 
to succeed. Keeping students safe sometimes requires schools to 
take appropriate disciplinary action. However, across the 
country, students are being suspended, expelled, or even 
arrested for minor misbehavior, like being late to school or 
violating a dress code policy. These zero-tolerance policies 
lead to high dropout rates, low academic achievement, and too 
many young people pushed on a pathway to prison.
    We have a discipline crisis in this country that must be 
ended. Suspension rates nearly doubled in the past 30 years. 
Police are arresting students for behaviors like talking back. 
That is now disorderly conduct. Or writing on desks. That is 
called vandalism.
    In Florida, during the 2010-11 school year, two-thirds of 
school-based referrals to law enforcement were for 
misdemeanors, including disruption of a school function, 
disorderly conduct, or minor schoolyard scuffles.
    In May, an honors student in Houston, Texas, spent the 
night in jail because she missed class because she had to go to 
work to support her family.
    In 2007, a 13-year-old from North Carolina was handcuffed 
and removed from school for writing the word ``Okay'' on her 
desk.
    Treating students like criminals does not make sense. Zero-
tolerance policies do not make our schools safer, and schools 
with higher rates of suspension and expulsion appear to have 
less satisfactory ratings of school climate.
    Zero-tolerance policies are also expensive. Every dollar 
that goes into police, metal detectors, drug-sniffing dogs, and 
surveillance cameras is a dollar that could have been used for 
teachers, guidance counselors, psychologists, and programs that 
support young people. Suspensions, expulsions, and arrests are 
disproportionately borne by young people of color, students 
with disabilities, and lesbian, gay, bisexual, transgender, and 
queer youth.
    Racial disparities are stark. These disparities are not the 
result of students of color acting out more. That is important. 
Students of color are actually far more likely than white 
students to be suspended for discretionary offenses like 
disrespect or disruption. These offenses, which are mainly in 
the eye of the beholder, leave room for implicit and explicit 
racial biases.
    This issue is not solely about misbehavior. Adults are 
often overreacting to young people, treating them like 
criminals. Let me be clear. I in no way want to contribute to 
the current culture of blaming teachers for all the ills of our 
schools. Many teachers use harsh discipline because they lack 
the needed tools and training. Additionally, the pressures of 
high-stakes testing often leave teachers with little time and 
few alternatives to exclusionary discipline.
    But we can end this school-to-prison pipeline and put young 
people on a track to success by focusing on preventing 
misbehavior and providing non-punitive, supportive, and 
effective interventions when misbehavior occurs. Through the 
ground-breaking advocacy of student groups like Padres y 
Jovenes Unidos in Denver, Youth United for Change in 
Philadelphia, VOYCE in Chicago, and others, school districts 
have started to limit unnecessary exclusionary discipline and 
address racial disparities. As a result, in Denver, from 2003 
to 2009, out-of-school suspensions dropped by 38 percent, and 
referrals to law enforcement dropped by 52 percent.
    In Baltimore, similar reforms have cut suspensions by 63 
percent, resulting in a 12.4 percent increase in graduation 
rates for black students.
    Common-sense discipline that keeps young people on an 
academic track leads to improved educational outcomes and 
maintains safe environments. My written testimony provides 
detailed recommendations for congressional action. Through 
funding incentives, data collection and analysis, and 
redefining what makes a school high performing, Congress can 
encourage the use of best practices and data-driven reform to 
dismantle the school-to-prison pipeline.
    Chairman Durbin, thank you for the opportunity to testify 
today on this critical civil rights issue. Students flourish 
when they are in school, when their schools are healthy, 
nurturing places where they can be safe and where they can 
learn. Thank you for ensuring that every student has the 
opportunity to stay on the pathway to success and not become 
caught in the school-to-prison pipeline.
    Thank you.
    [The prepared statement of Ms. Dianis appears as a 
submission for the record.]
    Chairman Durbin. Thank you for your testimony.
    Edward Ward is a sophomore honors student at DePaul 
University in Chicago. He majors in political science and works 
at the DePaul Christian Ministries. Edward Ward graduated in 
2011 from Orr Academy in Chicago, and he was the high school 
salutatorian. He was raised on the West Side of Chicago, has 
been an active volunteer with Blocks Together, a community 
organization in West Humboldt Park. He is also a licensed 
minister at the Word of Life Christian Ministries.
    Edward Ward, thank you for joining us today, and please 
proceed with your testimony.

 STATEMENT OF EDWARD WARD, BLOCKS TOGETHER, DIGNITY IN SCHOOLS 
                  CAMPAIGN, CHICAGO, ILLINOIS

    Mr. Ward. Thank you, Senator Durbin. Again, my name is 
Edward Ward. I am 20 years old, from Chicago, Illinois. I am an 
Honor Roll student at DePaul University.
    I grew up on the West Side of Chicago. Poverty and violence 
are prevalent in my community. When I was 18, I witnessed a 
complete stranger's killing mere feet from me in a neighborhood 
restaurant.
    A few years back, I was stopped by police on the streets, 
and I saw them train their guns on me until I could show them 
that the item in my hand was simply a cell phone.
    Many of us come from families where it is a constant 
struggle to pay bills. I have seen how my fellow students did 
all they could to focus on getting an education, despite the 
economic hardships they experienced at home, many of them while 
also taking care of their siblings and themselves.
    When I got to high school, I began to see that my fellow 
classmates were being constantly suspended from school. When my 
classmates were suspended, they would disappear for days, and 
when they were kicked out they would disappear even for weeks. 
What was most shocking to me was discovering that they were 
being suspended for minor infractions, the kind of infractions 
that should not merit more than a stern warning or reminder.
    Unreasonable punishments like these were not rare at my 
school. My classmates and I saw many other students served with 
two-day suspensions because, for example, they were not 
carrying the proper identification around their necks. Some of 
my friends would come to school late, sometimes by no fault of 
their own. I remember one of my peers coming to me saying that 
she was held in detention and could not be permitted to go to 
class because she came late, but it was because she could not 
leave her little brother at home alone until her parents came 
home from work. Other students were homeless and had trouble 
getting bus cards to come from far-off places where they 
stayed.
    My school's environment was very tense. The halls were full 
of school security officers whose only purpose seemed to be to 
serve students with detentions or suspensions. This was nerve-
wracking to me, because although I was an honor student, I felt 
constantly in a state of alert, afraid to make even the 
smallest mistake or create a noise that could enable the 
security officers to serve me with a detention. Instead of 
feeling like I could trust them, I felt like I could not go to 
them for general security issues because I would first be 
interrogated before anything would get done.
    Our school even had a police processing center so police 
could book students then and there. The officers do not get any 
special training to be in the school so they do not treat us 
like we are misbehaving; they treat us like criminals. Every 
time there was a fight, the police would step in and handcuff 
students even when there was no weapon involved. Some would be 
sent to the police station in the school; a few or some never 
came back to school after that.
    I could slowly see the determination to get an education 
fade from the faces of my peers because they were convinced 
that they no longer mattered. Until recently, I had a cousin 
who was attending Orr. However, he never finished because he 
was suspended with so much frequency that he eventually dropped 
out. He had a problem at home. You see, my cousin's mother is a 
drug addict, and as a young person he did not quite know how to 
deal with that, so he started acting out in class. He was what 
you would consider to be a ``class clown.'' The school believed 
that by suspending him, it would allow him more time to think 
about his misbehavior. Instead, it gave him more time alone on 
the streets and made it easier for him to simply turn to 
selling drugs and make easy money. Eventually, my cousin was 
arrested.
    Where many young people, like my cousin, feel unwelcome and 
under siege in their own schools, they end up on the streets, 
in the criminal justice system, or worse.
    Because I believed I needed to take part in improving my 
school, I got involved with Blocks Together, a nonprofit 
organization in the West Humboldt Park community, and a member 
of the National Dignity in Schools Campaign. At Blocks 
Together, we work to implement restorative justice practices in 
Chicago Public Schools. Restorative justice is grounded in the 
idea that we become safer when we hold each other accountable 
in ways that build a more tight-knit community. Restorative 
justice enables us to create an environment in which we 
listened to the voices of students who were facing disciplinary 
action and work together to resolve conflict.
    I think that schools need to throw out the assumption that 
young people are all dangerous or a threat. They must work to 
understand the issues that students face every day, whether it 
is at home, learning difficulties, language barriers, or 
experiencing bullying and discrimination. We need solutions, 
not suspensions.
    A number of my colleagues here today have worked with 
Chicago to revise its school discipline code to limit 
suspensions, and we look forward to working with CPS to build 
on these positive steps. I hope you understand that my 
experience at Orr was not an anomaly, but it is what is 
happening in schools across the country, particularly in 
communities of color.
    I would hope in the near future that we will have undone 
this mistake, that my children will never have to feel anything 
but welcome in their schools. But a problem that my generation 
did not cause cannot be solved by my generation alone.
    Thank you.
    [The prepared statement of Mr. Ward appears as a submission 
for the record.]
    Chairman Durbin. Thank you, Mr. Ward. That was excellent.
    I would like to note that we have a number of members of 
other youth organizations with us today. Twenty members of the 
Voices of Youth in Chicago Education, VOYCE, have traveled here 
from Illinois. Over 100 members of the Dignity in Schools 
Campaign and other organizations have traveled from all across 
the country. You are certainly welcome, and we thank you very 
much for being here.
    Andrew Coulson is our next witness. He is the director of 
the Cato Institute Center for Educational Freedom. Previously, 
he was a senior fellow in education policy at the Mackinac 
Center for Public Policy in Michigan. Mr. Coulson has written 
extensively about education, including a book entitled ``Market 
Education: The Unknown History.'' A graduate of McGill 
University in Canada, he began his career as a software 
engineer at Microsoft. I was glad to accommodate Senator 
Graham's request for Mr. Coulson to join us today. We welcome 
his testimony.
    Please proceed.

STATEMENT OF ANDREW J. COULSON, DIRECTOR, CATO INSTITUTE CENTER 
            FOR EDUCATIONAL FREEDOM, WASHINGTON, DC

    Mr. Coulson. Chairman Durbin, distinguished Members of the 
Committee, thank you very much for having me here today. You 
have already heard the harm done by out-of-school suspensions, 
so I would like to begin by describing an alternative.
    Imagine a school that does not expel students and does not 
use out-of-school suspensions. Instead, it enforced very 
vigorously a code of conduct for all students. Minor 
transgressions are greeted with detentions, more serious 
transgressions with in-school suspensions. The suspended 
students must write an essay explaining why their behavior was 
inappropriate, and they must write an apology to their fellow 
classmates and their teachers. They must attend Saturday 
morning classes to help them catch up academically, and they 
are temporarily assigned to a lower grade level during the 
period of their suspension.
    These are the policies of the American Indian Model Schools 
in Oakland, California, often abbreviated as AIM schools. 
Oakland, as you probably know, is one of the most crime-ridden 
cities in America. It is extremely dangerous. The school 
district is very often suspending students. There are 
fatalities of students, gunshot fatalities every year, 
sometimes by the school district's own armed police force.
    The American Indian schools are different. I visited them 
on numerous occasions. They are studious and orderly. There are 
no metal detectors. There are no school police. There is 
virtually no violence--something like three fights a year 
across all three campuses of this charter school network on 
average over the past eight years.
    They achieve this not by kicking out students, but by 
focusing, as I said, on discipline and on keeping students in 
school. Though they are a typical inner-city school as far as 
demographic make-up, predominantly Southeast Asian, Hispanic, 
and African American, their low-income Hispanic and African 
American students outperform California's statewide average for 
wealthier whites and Asians. It is one of the top schools--
their charter schools, their middle schools, are among the top 
schools in the entire State and the top-performing charter 
school network in the State.
    But the American Indian Model Schools are an exception. If 
we discontinue or drastically curtail the use of out-of-school 
suspensions tomorrow, that is not what students will get in 
their place. So we have to ask what will happen in the system 
as it exists today if we substantially curtail out-of-school 
suspensions.
    Well, this was a question investigated by Professor Joshua 
Kinsler in a forthcoming issue of the journal International 
Economic Review, and what Professor Kinsler discovered is that 
cutting out-of-school suspensions within the system as it 
exists now actually lowers overall student achievement and 
widens the black-white achievement gap, because keeping 
disruptive students in class makes it harder for the typical 
school to be able to teach and because lengthy suspensions, he 
found, did, in fact, encourage good behavior, or discourage 
misbehavior.
    In thinking about these findings, I was reminded of an 
essay that Judge Teske wrote last year. He argued that school 
officials and the justice system have a duty to protect 
innocent students from bullies, and he makes a compelling 
argument. And that same argument applies as much to children's 
education as to their physical safety. It is unjust to punish 
innocent students educationally for the actions of a disruptive 
few.
    Given that simply curtailing out-of-school suspensions by 
itself within the current system can make matters worse in some 
cases, according to Kinsler's research, we need to find a way 
of promoting the use of superior practices like those of the 
AIM model. In my written testimony, I offer two observations 
for how we might do that.
    First, if we want better policies, we need to ensure that 
it is in administrators' own interests not just to implement 
them, but implement them faithfully. Administrators should be 
recognized and rewarded for keeping more students in school, 
for maintaining better discipline, and for maximizing 
graduation rates. And as it happens, these are the incentives 
that we already see in the private sector in education.
    Second, effective school discipline requires consistency 
across grades and across teachers. Kids have to know that 
misbehavior that they cannot get away with in one class they 
will, again, not be able to get away with in another class. 
That consistency is essential.
    Well, sociological research done by Harvard researchers and 
others finds that independent schools tend to be better at 
creating this consistency and this shared sense of culture 
among the staff than public schools. And it is generally 
concluded that this is because private school administrators 
have greater freedom to create and maintain a staff committed 
to common values.
    I am not suggesting that Congress enact Nationwide private-
sector choice legislation. The Constitution does not empower it 
to do so. But Congress could facilitate the doption of such 
programs at the State level. It could expand the existing 
Washington, DC, Opportunity Scholarship Program as an example 
of what is possible. It could curtail existing Federal programs 
that have failed to show significant benefits and that reduce 
the educational resources available to States. And it could 
reject any new programs or regulations that would impede 
States' efforts to bring safe, responsive independent schools 
within reach of all children.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Coulson appears as a 
submission for the record.]
    Chairman Durbin. Thank you, sir.
    Judge Steven Teske was appointed to the bench in 1999. He 
is Chief Judge of the Juvenile Court of Clayton County, 
Georgia. Formerly, he served as Chief Parole Officer in Atlanta 
and as the Deputy Director of Field Services for the Board of 
Pardons and Paroles, Special Assistant Attorney General 
prosecuting child abuse and neglect cases. He is a leading 
expert on juvenile justice reform. He has been appointed by two 
Republican Governors to several criminal justice commissions. 
Judge Teske is a graduate of Georgia State University, where he 
received his master's and juris doctor degrees. Judge Teske, 
please proceed.

STATEMENT OF HON. STEVEN C. TESKE, CHIEF JUDGE, JUVENILE COURT 
         OF CLAYTON COUNTY, GEORGIA, JONESBORO, GEORGIA

    Judge Teske. Good afternoon, Chairman Durbin, Senator 
Franken.
    When I took the bench in 1999, I was shocked to find that 
approximately one-third of the cases in my courtroom were 
school related. The year before campus police, the court 
received only 49 school referrals. By 2004, the referrals 
increased over 2,000 percent, of which 92 percent were 
misdemeanors, mostly involving school fights, disorderly 
conduct, and disrupting public school.
    Despite the many arrests, school safety did not improve. 
Guns, knives, box-cutter knives, and straight-edge razors 
continued to come on campus. The graduation rates decreased 
during this same period, reaching an all-time low in 2003 of 58 
percent. The more students we arrested, suspended, and 
expelled, the more juvenile crime rate significantly increased. 
These kids lost one of the greatest protective buffers against 
delinquency: school connectedness.
    By 2004, over 80 percent of all school referrals were 
African American students. The racial disparity in school 
arrests was appalling, and I felt I was contributing to this 
system of racial bias by not doing something.
    It was also frustrating for me as a judge to see the 
effectiveness of the prosecutor and probation officer weakened 
by my court system being inundated with low-risk cases that 
consumed the court docket and pushed kids toward probation--
kids who made adults mad versus those who scared us.
    The prosecutor's attention was taken from the most serious 
and, therefore, difficult cases to prove--burglary, robberies, 
car thefts, aggravated assaults with weapons--to prosecuting 
minor cases. This craziness trickled over into probation cases, 
causing caseloads to increase six times their size, diverting 
attention from the serious to the minor cases. Consequently, 
our recidivist rate increased to over 70 percent. Zero 
tolerance was negatively impacting the entire community, and 
something had to be done.
    I turned to the Juvenile Detention Alternatives Initiative, 
JDAI, an initiative of the Annie E. Casey Foundation. In 2003, 
using the JDAI model, I exercised my convening role as a 
juvenile judge and convened all the stakeholders to discuss 
other ways to handle school offenses. We agreed on two written 
agreements necessary to address the interests of all 
stakeholders: one, reduce school arrests; two, develop 
alternatives to suspension and arrests, including assessment 
and treatment of chronically disruptive students.
    The first agreement prohibited the filing of certain 
misdemeanor offenses, and the second agreement created a 
multidisciplinary panel to assess the needs of disruptive 
students and treat them through our system of care that 
connected all of the community providers. The panel linked the 
child and family to services in the community that were not 
available to the school system.
    Since the introduction of the protocol in 2004, school 
referrals have fallen 83 percent. This reduction created a 
greater police presence on campus. They were not transporting 
kids anymore. They were not handcuffing as many kids anymore. 
But instead of arresting them, the police engaged students in 
positive ways, leading to positive results.
    By replacing these handcuffs with positive interaction, the 
students shared information with police about weapons, fights, 
and other disruptive events about to occur. As police intel 
increased, school disruptions decreased, including serious 
weapons on campus, by 73 percent. The school police have become 
the single most important tool for detectives to solve crimes, 
including murder, because of the style of school policing 
promoted by this protocol.
    The number of youth of color referred to the court on 
school offenses decreased by 43 percent. By reducing arrests 
and suspension rates and replacing these zero-tolerance 
practices with evidence-based programs, the overall graduation 
rates increased 24 percent. The protocol has dismantled our 
pipeline to prison by decreasing our probation cases from 150 
to 25 now per officer, allowing for intensive supervision of 
the high-risk kids with serious offenses and reducing the 
recidivist rates from over 70 percent down to 24 percent.
    Other results of the dismantling include a 70-percent 
decrease in the average daily population, that is, the kids in 
jail; a 64-percent reduction in the average daily jail 
population of minority youth; a 43-percent reduction in the 
average length of stay of these kids in jail who had to be 
placed in there, the more serious kids; 43 percent fewer 
commitments to State custody; 40 percent fewer commitments of 
minority youth, and--get this--a 67-percent decrease in the 
number of delinquent petitions filed in my court.
    The Clayton experience is not a novel idea. It is grounded 
in research that supports common-sense notions that keeping 
kids in school will increase graduation rates, that in turn 
will positively impact community safety and improve our 
economy.
    Clayton County may have been a pioneer in dismantling of 
this pipeline locally, but we are not alone. Many judges across 
our Nation have exercised leadership to convene stakeholders 
and have replicated results similar to Clayton.
    Chairman Durbin, Senator Franken, this issue is not going 
away. It is here to stay until the pipeline is completely 
dismantled. Just look around. Overflow. Look at all the kids. 
With the help of this Subcommittee, I know we can get there 
sooner or later. Thank you.
    [The prepared statement of Judge Teske appears as a 
submission for the record.]
    Chairman Durbin. Thanks, Judge Teske. Very powerful.
    Edward Ward, I visited Austin High School. I bet you know 
what that was, located on the West Side. It is closed down now, 
I think. But when I went there, they had decided that the Cook 
County Sheriff's Office would put an office there in the school 
so there would be plenty of squad cars always there on school 
property. When they let the school out at 2:30, they closed the 
surrounding streets so the drive-by gangs could not shoot at 
the kids as they were trying to get home. It was a pretty sad 
and violent situation there, and everybody, I think, was doing 
their very best, with metal detectors and everybody present, to 
really make sure that kids were not hurt or killed, literally, 
in the school or on their way home.
    I think they were doing the right thing. They may not have 
come to that strategy thinking through, as Judge Teske said, a 
different relationship with the students. But balance, if you 
will, the excesses that you saw where the student who stayed 
home to protect their little sister or brother ends up being 
brought into the criminal justice system with the reality of 
violence in the community that you also testified to. Tell me 
how to strike that balance.
    Mr. Ward. With the violence in the community, I think it 
outweighs a lot, nonetheless. When you suspend students or you 
put them out of school, whether it be expulsion or suspension, 
then you expose them to these violent crimes, or you expose 
them to this idea of being shot, being killed, being hurt, or 
being harmed. I have seen it all too many times where some of 
my family members were actually gunned down in front of my own 
house.
    Just before I got here, before I flew in from Chicago a few 
days ago--it was widespread on the news--a few friends of my 
brother, they were shot, one 16 years old, he was shot and 
killed. One was 17 years old, and the other was 19 years old. 
Those two, they were in critical condition.
    I think that we have to be able to tell the differences 
between troubled youth, not bad youth but troubled youth, 
because when you label them as threats, then you get 
consequences and not results. If we want to see action, if we 
want to see improvement in our schools, suspension just does 
not work. I have seen too many of my peers being suspended, and 
they have gotten to the point where, when they become afraid to 
get suspended, they decide that the best thing for them to do 
is leave, considering the fact that the schools label them as 
bad students and label them as mistakes. So we have to change 
the label on these students, and we have to give them an 
opportunity and a chance to express themselves, look into their 
history, look into where they come from, because a lot of youth 
from where I come from face huge struggles, huge difficulties. 
They go through a lot. And they have, like, where their basic 
necessities are not being met.
    For example, there were times with me where I did not have 
food in my house, and I was hungry, so the only place I could 
find a meal is in school. So when I get to school, that is all 
I am thinking about, my next meal. Other times I did not have 
heat in my house, so when I get to school, I am thinking about 
the cold house I have to go home to.
    So it is like we have to take into account the situations 
that students face outside of school to understand their 
actions while they are in school.
    Chairman Durbin. Senator DeWine, you talked about the Ohio 
experience you went through, and you talked about the 
prosecutors' court system and corrections system solution. A 
lot of testimony today talks about taking it down to the school 
level and trying to solve the problems in the school before it 
reaches that level. Was that part of the Ohio experience?
    Mr. DeWine. It was, Mr. Chairman, and I think as I listened 
to the very eloquent members of this panel and as I kind of 
reflect on my 30 years of dealing with law enforcement and 
judicial problems, I think the one thing we have learned is 
that whatever the punishment, it has to be appropriate and it 
has to fit. And it worked with our RECLAIM Ohio where sending a 
kid off and severing the relationship with the community, 
severing the relationship with family, sending them off to the 
State system for however long was not appropriate for all of 
these kids. It might have been appropriate and was appropriate 
for some of them, but certainly not all of them. I think the 
same way in schools. Clearly, the best thing we can do is try 
to keep kids in school if you can.
    Now, how you do that, we have heard different points of 
view about that and some innovative ideas of how we do that. 
But I just think that it has to be--whoever is making the 
decision, whether it is a judge or a principal or a teacher or 
whoever it is who has authority, we have to give them more 
tools and more options. And I think that what we look at as bad 
decisions, overreacting sometimes, comes from a lack of 
options. And so you have two bad options, and maybe you got the 
most severe, but maybe you want to do something that was, 
frankly, much more appropriate for that individual child. I 
just think that is what we have learned as we look at this 
whole thing.
    Chairman Durbin. So, Judge Teske, what you are talking 
about is a policeman in a school in a much different role, 
viewed differently by students at the end of the day. I am 
going to kind of challenge you and say, wouldn't the best 
outcome be no policeman in that school?
    Judge Teske. You know, I had that presented to me about 
three years ago. The only thing is that I do not believe that 
we would have achieved the 73-percent reduction necessarily, 
and as quick as we did, you know, with the serious weapons, 
guns and knives, coming on campus.
    But there is another asset here that I think needs to be 
mentioned. Our school resource officers are trained every year 
the week before------
    Chairman Durbin. This is the police officers?
    Judge Teske. Yes. The week before school starts, they are 
all required to be certified in crisis intervention. And at the 
end of the day, they are told in advance to come with testimony 
about things that have happened this past year as it relates to 
what we now call in Clayton County the positive student 
engagement model for school policing.
    Here is the asset, Mr. Chairman, and it is just real brief. 
Deputy Pauls at Forest Park High School gets up and says that 
she was called down to a classroom. A young lady was violent, 
throwing chairs at the teacher, threatening to kill the 
teacher. No doubt she had to be removed from the classroom. 
Before our protocol, she would have been handcuffed, no 
questions asked, placed in the patrol car, and brought down to 
my court. Now, instead, Deputy Pauls under this protocol takes 
the child down to her office, calms her down. It took about two 
hours working with her. She finally broke down and confessed 
that her mom's live-in boyfriend has been raping her every 
week. Instead, the girl was taken into protective custody, and 
the boyfriend was arrested for child molestation. I wonder who 
is really tough on crime. It may look soft, but we are tougher. 
We got a child molester, and we saved a girl.
    Chairman Durbin. That is a great story.
    Senator Franken.
    Senator Franken. Thank you, Judge, for that.
    Mr. Ward, you are a pretty impressive young man, and I 
think something you spoke to was very interesting to me. You 
said that because the atmosphere in the school was so tense and 
because of the way the police were in the school, you did not 
feel comfortable approaching them when you had something to 
report. So, Judge Teske, you are talking about this positive 
atmosphere, which actually helps address the crime that 
Chairman Durbin asked Mr. Ward about in his first question. So 
I think that this approach obviously works, and I just want to 
commend you, Mr. Ward, for your testimony and you, Judge.
    Senator DeWine, thank you for being here. You have been a 
leader on criminal justice reform both as a Senator, now as 
Attorney General, before as Lieutenant Governor. I think that 
RECLAIM, that initiative of saying that county judges are more 
in tune with the kids that are there and having the money 
follow the kid obviously was very successful and, I think, 
informs a lot of this.
    One of your biggest contributions when you were in the 
Senate was and has been to focus national attention on a crisis 
we have in this certainly, which is that people with mental 
health disorders, both kids and adults, disproportionately end 
up in the criminal justice system. By one account, about two-
thirds of kids in the juvenile justice system have diagnosable 
mental health disorders. We are basically using our criminal 
justice system as a substitute for a public health system and 
an educational system. So you have been a champion for mental 
health courts and other initiatives that address the problem.
    Can you talk a bit about why you consider this issue----the 
relationship between criminal justice and the mental health 
system--so important?
    Mr. DeWine. Mr. Chairman, Senator Franken, let me first of 
all congratulate you, Senator Franken, and the other Members of 
the House and the Senate who are working on legislation to 
follow up on that and to go further, and I congratulate you and 
I certainly wholeheartedly endorse your bill, and I hope you 
can get it passed.
    Senator Franken. It is reauthorizing your bill.
    Mr. DeWine. Yes. I appreciate that.
    [Laughter.]
    Senator Franken. I just wanted to clarify it for everyone.
    Mr. DeWine. That is why I think it is so good.
    Senator Franken. And I am very happy that I have Senator 
Johanns--this is a bipartisan issue. There is no question about 
that.
    Mr. DeWine. Senator, I first became interested in this 
issue when I was a young, 25-year-old assistant prosecuting 
attorney and was taking charge from police officers, and that 
was my job or one of my jobs, was trying cases. I would see 
time and time again people being brought back in or the file 
would reflect a guy who I thought we had dealt with six months 
before. And the police officer would say, ``Yes, it is the same 
guy.'' I would say, ``Well, what happened? '' ``Well, we put 
him in our jail for a while, and he served his time, but now he 
is back.'' He said, ``But, you know, the real problem is this 
guy has a mental problem.''
    Now, I heard that time and time again, and we did not 
have--you know, our local jail had good people, a great 
sheriff, but did not really have the resources to deal with 
this guy with his mental problems. And that was just my first 
introduction to how much mental problems weigh in on our 
judicial system and our criminal justice system. And it is 
something that I worked on, I worked on it while I was 
Lieutenant Governor; we tried to get some resources not only 
into our prisons but into our jails. We made some progress. But 
that is what got me interested in it, and it is something that 
police do not usually have the resources and many times courts 
do not have the resources. We have seen a great expansion.
    I partnered with Ted Strickland, who later became Governor 
of the State of Ohio. Ted and I partnered on a previous bill to 
that on mental health courts. I have worked very closely with 
Justice Stratton on the Ohio Supreme Court who has been a real 
champion for this. We have gotten into veterans courts. We have 
gotten into specialized courts to deal with people's real 
problems.
    And so you have to deal with them in prison, you have to 
deal with them in jails, and you have to deal with them in the 
courts, once again trying to give the resources and make those 
resources--once again, as we talked about a moment ago, the 
tools need to be there so that that person can be dealt with 
appropriately.
    Senator Franken. Well, thank you again for your 
contribution on mental health and justice issues.
    Mr. DeWine. Senator, if I could just add one additional 
thing, which I saw on your bill, and I think is very important, 
something we are right now working on in Ohio, and that is to 
continue training for police officers to give them the 
understanding, the in-depth understanding to deal with people 
with all kinds of problems, even people with autism, people 
with mental health problems. I think some of the saddest cases 
we have seen is parents who have a 25-year-old who clearly has 
a mental problem, and they have been struggling with that, and 
he or she has been struggling with that. And then one day the 
kid does not take his meds, whatever happens, and he goes off, 
the parents cannot control him. He is in the house, they call 
the police, and the police respond, and we end up with a police 
officer killed or we end up with this young man killed, and it 
is a horrible, horrible thing. And it is no one's fault. But 
what we have to do, I think, is make training available for 
police officers so they can deal with a very difficult 
situation. And I am not saying we can eliminate every bad 
outcome, but I think if the police officer has more and more 
training----
    Senator Franken. That training has been shown to be very 
helpful.
    Mr. DeWine. It just is very helpful, and I appreciate the 
time to say that. Thank you.
    Senator Franken. Well, thank you.
    Thank you, Mr. Chairman.
    Chairman Durbin. So, Ms. Browne Dianis, you heard Judge 
Teske talk about his experience in the courtroom there. You 
have done a lot of research in this area. Is this a model that 
we need to look to?
    Ms. Dianis. Yes, definitely. There are a number of things 
that I think that we should be looking at. One is the model 
that Judge Teske has used because it brings in stakeholders 
across sector, and part of the problem that we have found 
across the country is that we are not talking to each other. We 
cannot arrest our way out of this issue. We cannot suspend our 
way out of this issue. Young people have to be part of the 
conversation. Schools have to be part of it. And so what has 
been done with Judge Teske and the model that he is putting 
forth really is about getting everyone at the table to have 
that discussion and work toward solutions.
    In the work that we have supported, also, what we have done 
is that young people and parent groups have actually been 
sitting down with school districts, reforming discipline codes. 
They have taken the lead on understanding here are the things 
that need to be changed and here are the kinds of programs that 
we need, pushing restorative justice in particular places, but 
really having the people who are impacted in the discussion 
makes a world of difference. And that is why I think it is 
great that you have had this hearing, that you have young 
people here, because people like Edward who know the stories 
and know that we--for example, your question about police being 
around schools where there is violence. Part of the problem is 
that often when we have that situation, the police who are 
there to protect young people turn on those young people. They 
often look at them as the ones who are the criminals instead of 
just being there to make sure that they are getting home 
safely. And so part of this is that we have to have that 
discussion, we have to have the stakeholders at the table so 
that we can make the reforms that actually make sense from all 
perspectives.
    Chairman Durbin. Mr. Coulson, you heard Judge Teske's 
model, somewhat different than the author that you quoted. Do 
you disagree with his approach, or do you think we need to try 
your approach? Tell me where you come down on this.
    Mr. Coulson. I think Judge Teske's approach has definitely 
been effective. I have looked at the numbers on it, and there 
is just no arguing with them. In many cases, they have brought 
back down in just a few years numbers from spikes prior to his 
program's introduction that were absolutely astronomical. So it 
has really been an impressive improvement.
    The system that I think will get us what we want is one in 
which we allow a lot of different options to compete with one 
another for people's choices. In Oakland, the schools that I 
described, the American Indian Model Schools, are chosen 
schools. They are charter schools. Everyone in the district 
knows that these schools are incredibly strict and do not 
tolerate even the slightest kind of misbehavior in the 
classroom that interrupts learning. And as a result, families 
that do not think such a strict environment would be good for 
their kid are not compelled to send their children to them. 
And, indeed, some parents choose the school because they know 
it is the highest-achieving school in the district, if not the 
State, depending on the year, and because it is also known to 
be the safest set of schools in Oakland, but find that it is 
not right for their kids. In fact, I have had students at these 
American Indian Model Schools tell me, no, it is not right for 
every child. I mean, some kids just cannot thrive under the 
level of strictness that we have here. But if you can, you can 
excel here better than anywhere.
    So even that model that I have described is not what I--it 
should not be imposed on every school, but rather, we need a 
system in which schools are encouraged and their administrators 
are reinforced with every day of their working lives to find 
better ways to help kids. I think you really do need incentives 
more than mandates to make this work because we can mandate 
almost anything we want. Zero tolerance, all its faults, all 
its flaws, is a reaction to lawsuits and criticisms of bias 
from the 1980s and 1990s. You can read stories. I cite one in 
my testimony of an Associated Press story from 2001 where a 
school superintendent from San Diego is saying the reason we 
adopted these zero-tolerance policies is because everyone was 
suing us because they said our discipline policies were not 
uniform, and so we mandated these across the board, zero-
tolerance policies in all our schools in our districts. So they 
mandated these policies, and they were badly implemented in 
many cases, and we have all the horrible results we see today. 
But if it were in the interest of those administrators to keep 
kids in school, to have them achieving at high levels, to have 
them graduating at high levels, they would do so.
    Chairman Durbin. Thanks.
    Judge Teske, address the parent side of this issue for a 
moment. As Mr. Coulson said, in the charter school, the parents 
have chosen the school. And I might have missed it when you 
gave your explanation of your program and how it worked. Tell 
me the involvement of parents in the solutions.
    Judge Teske. Well, I had mentioned that we have a system of 
care, and, you know, let me point out that--I mean, it is like 
six, a half dozen ways, or the other. I mean, in a charter 
school like, you know, he has described, you know, you are 
replacing suspensions with positive behavioral-support type of 
interventions, okay? At the same time, for us in the public 
school system, we have to keep in mind that it is a public 
school system. You know, all kids are allowed in the school. 
The door is open. It is a big net.
    Once they get in, well, who do we have coming in? Because, 
you know, these kids are coming from different households with 
different issues. The Task Force on Violence, look, Governor 
Deal has me as a commissioner on the Family Violence Commission 
in the State of Georgia. I just finished a two-year term and 
started another one. The point is that we have to keep in mind 
that 60 percent of the kids in the juvenile justice system at 
least have experienced childhood trauma, including family 
violence, sexual abuse, physical abuse, accumulation of 
stressors. The public school system does not have a choice to 
shut them out. They are coming in. And, man, that is a trauma 
on the system itself. The schools need help. And the only way 
to get help is to bring everyone together and connect the 
school system--let us look at this in terms of a systems model. 
Connect the school system with all the other systems that 
service children, and we call that a system of care. We care 
about kids enough, we want to connect everyone together. And we 
feel--you know, I empathize with the school systems who are out 
there isolated by themselves. No wonder punishment becomes a 
default. We ask too much of them all by themselves to treat 
trauma, traumatized kids and--I mean, they have enough problems 
as it is with just trying to put the federally mandated kids 
with an IEP. Well, you know, there is a larger population of 
kids who will never be diagnosed under the IDEA who are 
chronically disruptive and need help because they are coming 
from homes, for one, with family violence or other childhood 
traumas, or they have other mental health types of disorders.
    So what do we do? We bring parents in the system of care, 
and we let the parents own it. We let the parents help develop 
the treatment plan. And you know what? Some of these parents, 
they need help, too. And we help them help themselves. And by 
the system of care, we are able to bring in family functional 
therapy, multi-systemic therapy, IFI services, wrap-around 
services, family counseling. And we are able to do it because 
we can pool our resources. And, by the way, I want you to know 
something, Senator. Tomorrow is the final meeting for our 
Georgia Criminal Justice Reform Council. The Governor put me on 
that, and we are going to be adopting recommendations, of which 
one of those I am voting for is to adopt a RECLAIM Ohio model 
for Georgia.
    Chairman Durbin. Thank you.
    I want to tell you, this has been an extraordinary hearing 
because of the witnesses and the people who have attended it 
and the nature of this issue and how much it means to all of us 
who are here today. This is just an indication of the 
statements that are being submitted by organizations that want 
to be part of this and could not bring a witness or could not 
attend. But it is an indication of the level of interest all 
across the United States. And without objection, I am going to 
place these in the record.
    [The information appears as a submission for the record.]
    Chairman Durbin. The hearing record is going to be open for 
a week for additional statements, and written questions may be 
sent to the witnesses. We ask you if you could respond to them 
in a prompt way.
    I understood Senator Blumenthal was returning, but it looks 
like I am going to gavel this to a close and thank all the 
witnesses on this panel and everyone who has been here today.
    This meeting stands adjourned.
    [Whereupon, at 4:10 p.m., the Subcommittee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]
                            A P P E N D I X

              Additional Material Submitted for the Record

[GRAPHIC] [TIFF OMITTED] T6166.001

[GRAPHIC] [TIFF OMITTED] T6166.002

    Prepared Statements of Witnesses and Committee and Subcommittee 
                                Chairmen

[GRAPHIC] [TIFF OMITTED] T6166.003

[GRAPHIC] [TIFF OMITTED] T6166.004

[GRAPHIC] [TIFF OMITTED] T6166.005

[GRAPHIC] [TIFF OMITTED] T6166.006

[GRAPHIC] [TIFF OMITTED] T6166.007

[GRAPHIC] [TIFF OMITTED] T6166.008

[GRAPHIC] [TIFF OMITTED] T6166.009

[GRAPHIC] [TIFF OMITTED] T6166.010

[GRAPHIC] [TIFF OMITTED] T6166.011

[GRAPHIC] [TIFF OMITTED] T6166.012

[GRAPHIC] [TIFF OMITTED] T6166.013

[GRAPHIC] [TIFF OMITTED] T6166.014

[GRAPHIC] [TIFF OMITTED] T6166.015

[GRAPHIC] [TIFF OMITTED] T6166.016

[GRAPHIC] [TIFF OMITTED] T6166.017

[GRAPHIC] [TIFF OMITTED] T6166.018

[GRAPHIC] [TIFF OMITTED] T6166.019

[GRAPHIC] [TIFF OMITTED] T6166.020

[GRAPHIC] [TIFF OMITTED] T6166.021

[GRAPHIC] [TIFF OMITTED] T6166.022

[GRAPHIC] [TIFF OMITTED] T6166.023

[GRAPHIC] [TIFF OMITTED] T6166.024

[GRAPHIC] [TIFF OMITTED] T6166.025

[GRAPHIC] [TIFF OMITTED] T6166.026

[GRAPHIC] [TIFF OMITTED] T6166.027

[GRAPHIC] [TIFF OMITTED] T6166.028

[GRAPHIC] [TIFF OMITTED] T6166.029

[GRAPHIC] [TIFF OMITTED] T6166.030

[GRAPHIC] [TIFF OMITTED] T6166.031

[GRAPHIC] [TIFF OMITTED] T6166.032

[GRAPHIC] [TIFF OMITTED] T6166.033

[GRAPHIC] [TIFF OMITTED] T6166.034

[GRAPHIC] [TIFF OMITTED] T6166.035

[GRAPHIC] [TIFF OMITTED] T6166.036

[GRAPHIC] [TIFF OMITTED] T6166.037

[GRAPHIC] [TIFF OMITTED] T6166.038

[GRAPHIC] [TIFF OMITTED] T6166.039

[GRAPHIC] [TIFF OMITTED] T6166.040

[GRAPHIC] [TIFF OMITTED] T6166.041

[GRAPHIC] [TIFF OMITTED] T6166.042

[GRAPHIC] [TIFF OMITTED] T6166.043

[GRAPHIC] [TIFF OMITTED] T6166.044

[GRAPHIC] [TIFF OMITTED] T6166.045

[GRAPHIC] [TIFF OMITTED] T6166.046

[GRAPHIC] [TIFF OMITTED] T6166.047

[GRAPHIC] [TIFF OMITTED] T6166.048

[GRAPHIC] [TIFF OMITTED] T6166.049

[GRAPHIC] [TIFF OMITTED] T6166.050

[GRAPHIC] [TIFF OMITTED] T6166.051

[GRAPHIC] [TIFF OMITTED] T6166.052

[GRAPHIC] [TIFF OMITTED] T6166.053

[GRAPHIC] [TIFF OMITTED] T6166.054

[GRAPHIC] [TIFF OMITTED] T6166.055

[GRAPHIC] [TIFF OMITTED] T6166.056

[GRAPHIC] [TIFF OMITTED] T6166.057

[GRAPHIC] [TIFF OMITTED] T6166.058

[GRAPHIC] [TIFF OMITTED] T6166.059

[GRAPHIC] [TIFF OMITTED] T6166.060

[GRAPHIC] [TIFF OMITTED] T6166.061

[GRAPHIC] [TIFF OMITTED] T6166.062

[GRAPHIC] [TIFF OMITTED] T6166.063

[GRAPHIC] [TIFF OMITTED] T6166.064

[GRAPHIC] [TIFF OMITTED] T6166.065

[GRAPHIC] [TIFF OMITTED] T6166.066

[GRAPHIC] [TIFF OMITTED] T6166.067

[GRAPHIC] [TIFF OMITTED] T6166.068

[GRAPHIC] [TIFF OMITTED] T6166.069

[GRAPHIC] [TIFF OMITTED] T6166.070

[GRAPHIC] [TIFF OMITTED] T6166.071

[GRAPHIC] [TIFF OMITTED] T6166.072

[GRAPHIC] [TIFF OMITTED] T6166.073

[GRAPHIC] [TIFF OMITTED] T6166.074

[GRAPHIC] [TIFF OMITTED] T6166.075

[GRAPHIC] [TIFF OMITTED] T6166.076

                   Questions from Senator Al Franken

[GRAPHIC] [TIFF OMITTED] T6166.077

[GRAPHIC] [TIFF OMITTED] T6166.078

[GRAPHIC] [TIFF OMITTED] T6166.079

                         Questions and Answers

[GRAPHIC] [TIFF OMITTED] T6166.080

[GRAPHIC] [TIFF OMITTED] T6166.081

[GRAPHIC] [TIFF OMITTED] T6166.082

[GRAPHIC] [TIFF OMITTED] T6166.083

[GRAPHIC] [TIFF OMITTED] T6166.084

[GRAPHIC] [TIFF OMITTED] T6166.085

[GRAPHIC] [TIFF OMITTED] T6166.086

[GRAPHIC] [TIFF OMITTED] T6166.087

[GRAPHIC] [TIFF OMITTED] T6166.088

[GRAPHIC] [TIFF OMITTED] T6166.089

[GRAPHIC] [TIFF OMITTED] T6166.090

[GRAPHIC] [TIFF OMITTED] T6166.091

[GRAPHIC] [TIFF OMITTED] T6166.092

[GRAPHIC] [TIFF OMITTED] T6166.093

[GRAPHIC] [TIFF OMITTED] T6166.094

[GRAPHIC] [TIFF OMITTED] T6166.095

[GRAPHIC] [TIFF OMITTED] T6166.096

[GRAPHIC] [TIFF OMITTED] T6166.097

                Miscellaneous Submissions for the Record

[GRAPHIC] [TIFF OMITTED] T6166.098

[GRAPHIC] [TIFF OMITTED] T6166.099

[GRAPHIC] [TIFF OMITTED] T6166.100

[GRAPHIC] [TIFF OMITTED] T6166.101

[GRAPHIC] [TIFF OMITTED] T6166.102

[GRAPHIC] [TIFF OMITTED] T6166.103

[GRAPHIC] [TIFF OMITTED] T6166.104

[GRAPHIC] [TIFF OMITTED] T6166.105

[GRAPHIC] [TIFF OMITTED] T6166.106

[GRAPHIC] [TIFF OMITTED] T6166.107

[GRAPHIC] [TIFF OMITTED] T6166.108

[GRAPHIC] [TIFF OMITTED] T6166.109

[GRAPHIC] [TIFF OMITTED] T6166.110

[GRAPHIC] [TIFF OMITTED] T6166.111

[GRAPHIC] [TIFF OMITTED] T6166.112

[GRAPHIC] [TIFF OMITTED] T6166.113

[GRAPHIC] [TIFF OMITTED] T6166.114

[GRAPHIC] [TIFF OMITTED] T6166.115

[GRAPHIC] [TIFF OMITTED] T6166.116

[GRAPHIC] [TIFF OMITTED] T6166.117

[GRAPHIC] [TIFF OMITTED] T6166.118

[GRAPHIC] [TIFF OMITTED] T6166.119

[GRAPHIC] [TIFF OMITTED] T6166.120

[GRAPHIC] [TIFF OMITTED] T6166.121

[GRAPHIC] [TIFF OMITTED] T6166.122

[GRAPHIC] [TIFF OMITTED] T6166.123

[GRAPHIC] [TIFF OMITTED] T6166.124

[GRAPHIC] [TIFF OMITTED] T6166.125

[GRAPHIC] [TIFF OMITTED] T6166.126

[GRAPHIC] [TIFF OMITTED] T6166.127

[GRAPHIC] [TIFF OMITTED] T6166.128

[GRAPHIC] [TIFF OMITTED] T6166.129

[GRAPHIC] [TIFF OMITTED] T6166.130

[GRAPHIC] [TIFF OMITTED] T6166.131

[GRAPHIC] [TIFF OMITTED] T6166.132

[GRAPHIC] [TIFF OMITTED] T6166.133

[GRAPHIC] [TIFF OMITTED] T6166.134

[GRAPHIC] [TIFF OMITTED] T6166.135

[GRAPHIC] [TIFF OMITTED] T6166.136

[GRAPHIC] [TIFF OMITTED] T6166.137

[GRAPHIC] [TIFF OMITTED] T6166.138

[GRAPHIC] [TIFF OMITTED] T6166.139

[GRAPHIC] [TIFF OMITTED] T6166.140

[GRAPHIC] [TIFF OMITTED] T6166.141

[GRAPHIC] [TIFF OMITTED] T6166.142

[GRAPHIC] [TIFF OMITTED] T6166.143

[GRAPHIC] [TIFF OMITTED] T6166.144

[GRAPHIC] [TIFF OMITTED] T6166.145

[GRAPHIC] [TIFF OMITTED] T6166.146

[GRAPHIC] [TIFF OMITTED] T6166.147

[GRAPHIC] [TIFF OMITTED] T6166.148

[GRAPHIC] [TIFF OMITTED] T6166.149

[GRAPHIC] [TIFF OMITTED] T6166.150

[GRAPHIC] [TIFF OMITTED] T6166.151

[GRAPHIC] [TIFF OMITTED] T6166.152

[GRAPHIC] [TIFF OMITTED] T6166.153

[GRAPHIC] [TIFF OMITTED] T6166.154

[GRAPHIC] [TIFF OMITTED] T6166.155

[GRAPHIC] [TIFF OMITTED] T6166.156

[GRAPHIC] [TIFF OMITTED] T6166.157

[GRAPHIC] [TIFF OMITTED] T6166.158

[GRAPHIC] [TIFF OMITTED] T6166.159

[GRAPHIC] [TIFF OMITTED] T6166.160

[GRAPHIC] [TIFF OMITTED] T6166.161

[GRAPHIC] [TIFF OMITTED] T6166.162

[GRAPHIC] [TIFF OMITTED] T6166.163

[GRAPHIC] [TIFF OMITTED] T6166.164

[GRAPHIC] [TIFF OMITTED] T6166.165

[GRAPHIC] [TIFF OMITTED] T6166.166

[GRAPHIC] [TIFF OMITTED] T6166.167

[GRAPHIC] [TIFF OMITTED] T6166.168

[GRAPHIC] [TIFF OMITTED] T6166.169

[GRAPHIC] [TIFF OMITTED] T6166.170

[GRAPHIC] [TIFF OMITTED] T6166.171

[GRAPHIC] [TIFF OMITTED] T6166.172

[GRAPHIC] [TIFF OMITTED] T6166.173

[GRAPHIC] [TIFF OMITTED] T6166.174

[GRAPHIC] [TIFF OMITTED] T6166.175

[GRAPHIC] [TIFF OMITTED] T6166.176

[GRAPHIC] [TIFF OMITTED] T6166.177

[GRAPHIC] [TIFF OMITTED] T6166.178

[GRAPHIC] [TIFF OMITTED] T6166.179

[GRAPHIC] [TIFF OMITTED] T6166.180

[GRAPHIC] [TIFF OMITTED] T6166.181

[GRAPHIC] [TIFF OMITTED] T6166.182

[GRAPHIC] [TIFF OMITTED] T6166.183

[GRAPHIC] [TIFF OMITTED] T6166.184

[GRAPHIC] [TIFF OMITTED] T6166.185

[GRAPHIC] [TIFF OMITTED] T6166.186

[GRAPHIC] [TIFF OMITTED] T6166.187

[GRAPHIC] [TIFF OMITTED] T6166.188

[GRAPHIC] [TIFF OMITTED] T6166.189

[GRAPHIC] [TIFF OMITTED] T6166.190

[GRAPHIC] [TIFF OMITTED] T6166.191

[GRAPHIC] [TIFF OMITTED] T6166.192

[GRAPHIC] [TIFF OMITTED] T6166.193

[GRAPHIC] [TIFF OMITTED] T6166.194

[GRAPHIC] [TIFF OMITTED] T6166.195

[GRAPHIC] [TIFF OMITTED] T6166.196

[GRAPHIC] [TIFF OMITTED] T6166.197

[GRAPHIC] [TIFF OMITTED] T6166.198

[GRAPHIC] [TIFF OMITTED] T6166.199

[GRAPHIC] [TIFF OMITTED] T6166.200

[GRAPHIC] [TIFF OMITTED] T6166.201

[GRAPHIC] [TIFF OMITTED] T6166.202

[GRAPHIC] [TIFF OMITTED] T6166.203

[GRAPHIC] [TIFF OMITTED] T6166.204

[GRAPHIC] [TIFF OMITTED] T6166.205

[GRAPHIC] [TIFF OMITTED] T6166.206

[GRAPHIC] [TIFF OMITTED] T6166.207

[GRAPHIC] [TIFF OMITTED] T6166.208

[GRAPHIC] [TIFF OMITTED] T6166.209

[GRAPHIC] [TIFF OMITTED] T6166.210

[GRAPHIC] [TIFF OMITTED] T6166.211

[GRAPHIC] [TIFF OMITTED] T6166.212

[GRAPHIC] [TIFF OMITTED] T6166.213

[GRAPHIC] [TIFF OMITTED] T6166.214

[GRAPHIC] [TIFF OMITTED] T6166.215

[GRAPHIC] [TIFF OMITTED] T6166.216

[GRAPHIC] [TIFF OMITTED] T6166.217

[GRAPHIC] [TIFF OMITTED] T6166.218

[GRAPHIC] [TIFF OMITTED] T6166.219

[GRAPHIC] [TIFF OMITTED] T6166.220

[GRAPHIC] [TIFF OMITTED] T6166.221

[GRAPHIC] [TIFF OMITTED] T6166.222

[GRAPHIC] [TIFF OMITTED] T6166.223

[GRAPHIC] [TIFF OMITTED] T6166.224

[GRAPHIC] [TIFF OMITTED] T6166.225

[GRAPHIC] [TIFF OMITTED] T6166.226

[GRAPHIC] [TIFF OMITTED] T6166.227

[GRAPHIC] [TIFF OMITTED] T6166.228

[GRAPHIC] [TIFF OMITTED] T6166.229

[GRAPHIC] [TIFF OMITTED] T6166.230

[GRAPHIC] [TIFF OMITTED] T6166.231

[GRAPHIC] [TIFF OMITTED] T6166.232

[GRAPHIC] [TIFF OMITTED] T6166.233

[GRAPHIC] [TIFF OMITTED] T6166.234

[GRAPHIC] [TIFF OMITTED] T6166.235

[GRAPHIC] [TIFF OMITTED] T6166.236

[GRAPHIC] [TIFF OMITTED] T6166.237

[GRAPHIC] [TIFF OMITTED] T6166.238

[GRAPHIC] [TIFF OMITTED] T6166.239

[GRAPHIC] [TIFF OMITTED] T6166.240

[GRAPHIC] [TIFF OMITTED] T6166.241

[GRAPHIC] [TIFF OMITTED] T6166.242

[GRAPHIC] [TIFF OMITTED] T6166.243

[GRAPHIC] [TIFF OMITTED] T6166.244

[GRAPHIC] [TIFF OMITTED] T6166.245

[GRAPHIC] [TIFF OMITTED] T6166.246

[GRAPHIC] [TIFF OMITTED] T6166.247

[GRAPHIC] [TIFF OMITTED] T6166.248

[GRAPHIC] [TIFF OMITTED] T6166.249

[GRAPHIC] [TIFF OMITTED] T6166.250

[GRAPHIC] [TIFF OMITTED] T6166.251

[GRAPHIC] [TIFF OMITTED] T6166.252

[GRAPHIC] [TIFF OMITTED] T6166.253

[GRAPHIC] [TIFF OMITTED] T6166.254

[GRAPHIC] [TIFF OMITTED] T6166.255

[GRAPHIC] [TIFF OMITTED] T6166.256

[GRAPHIC] [TIFF OMITTED] T6166.257

[GRAPHIC] [TIFF OMITTED] T6166.258

[GRAPHIC] [TIFF OMITTED] T6166.259

[GRAPHIC] [TIFF OMITTED] T6166.260

[GRAPHIC] [TIFF OMITTED] T6166.261

[GRAPHIC] [TIFF OMITTED] T6166.262

[GRAPHIC] [TIFF OMITTED] T6166.263

[GRAPHIC] [TIFF OMITTED] T6166.264

[GRAPHIC] [TIFF OMITTED] T6166.265

[GRAPHIC] [TIFF OMITTED] T6166.266

[GRAPHIC] [TIFF OMITTED] T6166.267

[GRAPHIC] [TIFF OMITTED] T6166.268

[GRAPHIC] [TIFF OMITTED] T6166.269

[GRAPHIC] [TIFF OMITTED] T6166.270

[GRAPHIC] [TIFF OMITTED] T6166.271

[GRAPHIC] [TIFF OMITTED] T6166.272

[GRAPHIC] [TIFF OMITTED] T6166.273

[GRAPHIC] [TIFF OMITTED] T6166.274

[GRAPHIC] [TIFF OMITTED] T6166.275

[GRAPHIC] [TIFF OMITTED] T6166.276

[GRAPHIC] [TIFF OMITTED] T6166.277

[GRAPHIC] [TIFF OMITTED] T6166.278

[GRAPHIC] [TIFF OMITTED] T6166.279

[GRAPHIC] [TIFF OMITTED] T6166.280

[GRAPHIC] [TIFF OMITTED] T6166.281

[GRAPHIC] [TIFF OMITTED] T6166.282

[GRAPHIC] [TIFF OMITTED] T6166.283

[GRAPHIC] [TIFF OMITTED] T6166.284

[GRAPHIC] [TIFF OMITTED] T6166.285

[GRAPHIC] [TIFF OMITTED] T6166.286

[GRAPHIC] [TIFF OMITTED] T6166.287

[GRAPHIC] [TIFF OMITTED] T6166.288

[GRAPHIC] [TIFF OMITTED] T6166.289

[GRAPHIC] [TIFF OMITTED] T6166.290

[GRAPHIC] [TIFF OMITTED] T6166.291

[GRAPHIC] [TIFF OMITTED] T6166.292

[GRAPHIC] [TIFF OMITTED] T6166.293

[GRAPHIC] [TIFF OMITTED] T6166.294

[GRAPHIC] [TIFF OMITTED] T6166.295

[GRAPHIC] [TIFF OMITTED] T6166.296

[GRAPHIC] [TIFF OMITTED] T6166.297

[GRAPHIC] [TIFF OMITTED] T6166.298

[GRAPHIC] [TIFF OMITTED] T6166.299

[GRAPHIC] [TIFF OMITTED] T6166.300

[GRAPHIC] [TIFF OMITTED] T6166.301

[GRAPHIC] [TIFF OMITTED] T6166.302

[GRAPHIC] [TIFF OMITTED] T6166.303

[GRAPHIC] [TIFF OMITTED] T6166.304

[GRAPHIC] [TIFF OMITTED] T6166.305

[GRAPHIC] [TIFF OMITTED] T6166.306

[GRAPHIC] [TIFF OMITTED] T6166.307

[GRAPHIC] [TIFF OMITTED] T6166.308

[GRAPHIC] [TIFF OMITTED] T6166.309

[GRAPHIC] [TIFF OMITTED] T6166.310

[GRAPHIC] [TIFF OMITTED] T6166.311

[GRAPHIC] [TIFF OMITTED] T6166.312

[GRAPHIC] [TIFF OMITTED] T6166.313

[GRAPHIC] [TIFF OMITTED] T6166.314

[GRAPHIC] [TIFF OMITTED] T6166.315

[GRAPHIC] [TIFF OMITTED] T6166.316

[GRAPHIC] [TIFF OMITTED] T6166.317

[GRAPHIC] [TIFF OMITTED] T6166.318

[GRAPHIC] [TIFF OMITTED] T6166.319

[GRAPHIC] [TIFF OMITTED] T6166.320

[GRAPHIC] [TIFF OMITTED] T6166.321

[GRAPHIC] [TIFF OMITTED] T6166.322

[GRAPHIC] [TIFF OMITTED] T6166.323

[GRAPHIC] [TIFF OMITTED] T6166.324

[GRAPHIC] [TIFF OMITTED] T6166.325

[GRAPHIC] [TIFF OMITTED] T6166.326

[GRAPHIC] [TIFF OMITTED] T6166.327

[GRAPHIC] [TIFF OMITTED] T6166.328

[GRAPHIC] [TIFF OMITTED] T6166.329

[GRAPHIC] [TIFF OMITTED] T6166.330

[GRAPHIC] [TIFF OMITTED] T6166.331

[GRAPHIC] [TIFF OMITTED] T6166.332

[GRAPHIC] [TIFF OMITTED] T6166.333

[GRAPHIC] [TIFF OMITTED] T6166.334

[GRAPHIC] [TIFF OMITTED] T6166.335

[GRAPHIC] [TIFF OMITTED] T6166.336

[GRAPHIC] [TIFF OMITTED] T6166.337

[GRAPHIC] [TIFF OMITTED] T6166.338

[GRAPHIC] [TIFF OMITTED] T6166.339

[GRAPHIC] [TIFF OMITTED] T6166.340

[GRAPHIC] [TIFF OMITTED] T6166.341

[GRAPHIC] [TIFF OMITTED] T6166.342

[GRAPHIC] [TIFF OMITTED] T6166.343

[GRAPHIC] [TIFF OMITTED] T6166.344

[GRAPHIC] [TIFF OMITTED] T6166.345

[GRAPHIC] [TIFF OMITTED] T6166.346

[GRAPHIC] [TIFF OMITTED] T6166.347

[GRAPHIC] [TIFF OMITTED] T6166.348

[GRAPHIC] [TIFF OMITTED] T6166.349

[GRAPHIC] [TIFF OMITTED] T6166.350

[GRAPHIC] [TIFF OMITTED] T6166.351

[GRAPHIC] [TIFF OMITTED] T6166.352

[GRAPHIC] [TIFF OMITTED] T6166.353

[GRAPHIC] [TIFF OMITTED] T6166.354

[GRAPHIC] [TIFF OMITTED] T6166.355

[GRAPHIC] [TIFF OMITTED] T6166.356

[GRAPHIC] [TIFF OMITTED] T6166.357

[GRAPHIC] [TIFF OMITTED] T6166.358

[GRAPHIC] [TIFF OMITTED] T6166.359

[GRAPHIC] [TIFF OMITTED] T6166.360

[GRAPHIC] [TIFF OMITTED] T6166.361

[GRAPHIC] [TIFF OMITTED] T6166.362

[GRAPHIC] [TIFF OMITTED] T6166.363

[GRAPHIC] [TIFF OMITTED] T6166.364

[GRAPHIC] [TIFF OMITTED] T6166.365

[GRAPHIC] [TIFF OMITTED] T6166.366

[GRAPHIC] [TIFF OMITTED] T6166.367

[GRAPHIC] [TIFF OMITTED] T6166.368

[GRAPHIC] [TIFF OMITTED] T6166.369

[GRAPHIC] [TIFF OMITTED] T6166.370

[GRAPHIC] [TIFF OMITTED] T6166.371

[GRAPHIC] [TIFF OMITTED] T6166.372

[GRAPHIC] [TIFF OMITTED] T6166.373

[GRAPHIC] [TIFF OMITTED] T6166.374

[GRAPHIC] [TIFF OMITTED] T6166.375

[GRAPHIC] [TIFF OMITTED] T6166.376

[GRAPHIC] [TIFF OMITTED] T6166.377

[GRAPHIC] [TIFF OMITTED] T6166.378

[GRAPHIC] [TIFF OMITTED] T6166.379

[GRAPHIC] [TIFF OMITTED] T6166.380

[GRAPHIC] [TIFF OMITTED] T6166.381

[GRAPHIC] [TIFF OMITTED] T6166.382

[GRAPHIC] [TIFF OMITTED] T6166.383

[GRAPHIC] [TIFF OMITTED] T6166.384

[GRAPHIC] [TIFF OMITTED] T6166.385

[GRAPHIC] [TIFF OMITTED] T6166.386

[GRAPHIC] [TIFF OMITTED] T6166.387

[GRAPHIC] [TIFF OMITTED] T6166.388

[GRAPHIC] [TIFF OMITTED] T6166.389

[GRAPHIC] [TIFF OMITTED] T6166.390

[GRAPHIC] [TIFF OMITTED] T6166.391

[GRAPHIC] [TIFF OMITTED] T6166.392

[GRAPHIC] [TIFF OMITTED] T6166.393

[GRAPHIC] [TIFF OMITTED] T6166.394

[GRAPHIC] [TIFF OMITTED] T6166.395

[GRAPHIC] [TIFF OMITTED] T6166.396

[GRAPHIC] [TIFF OMITTED] T6166.397

[GRAPHIC] [TIFF OMITTED] T6166.398

[GRAPHIC] [TIFF OMITTED] T6166.399

[GRAPHIC] [TIFF OMITTED] T6166.400

[GRAPHIC] [TIFF OMITTED] T6166.401

[GRAPHIC] [TIFF OMITTED] T6166.402

[GRAPHIC] [TIFF OMITTED] T6166.403

[GRAPHIC] [TIFF OMITTED] T6166.404

[GRAPHIC] [TIFF OMITTED] T6166.405

[GRAPHIC] [TIFF OMITTED] T6166.406

[GRAPHIC] [TIFF OMITTED] T6166.407

[GRAPHIC] [TIFF OMITTED] T6166.408

[GRAPHIC] [TIFF OMITTED] T6166.409

[GRAPHIC] [TIFF OMITTED] T6166.410

[GRAPHIC] [TIFF OMITTED] T6166.411

[GRAPHIC] [TIFF OMITTED] T6166.412

[GRAPHIC] [TIFF OMITTED] T6166.413

[GRAPHIC] [TIFF OMITTED] T6166.414

[GRAPHIC] [TIFF OMITTED] T6166.415

[GRAPHIC] [TIFF OMITTED] T6166.416

[GRAPHIC] [TIFF OMITTED] T6166.417

[GRAPHIC] [TIFF OMITTED] T6166.418

[GRAPHIC] [TIFF OMITTED] T6166.419

[GRAPHIC] [TIFF OMITTED] T6166.420

[GRAPHIC] [TIFF OMITTED] T6166.421

[GRAPHIC] [TIFF OMITTED] T6166.422

[GRAPHIC] [TIFF OMITTED] T6166.423

[GRAPHIC] [TIFF OMITTED] T6166.424

[GRAPHIC] [TIFF OMITTED] T6166.425

[GRAPHIC] [TIFF OMITTED] T6166.426

[GRAPHIC] [TIFF OMITTED] T6166.427

[GRAPHIC] [TIFF OMITTED] T6166.428

[GRAPHIC] [TIFF OMITTED] T6166.429

[GRAPHIC] [TIFF OMITTED] T6166.430

[GRAPHIC] [TIFF OMITTED] T6166.431

[GRAPHIC] [TIFF OMITTED] T6166.432

[GRAPHIC] [TIFF OMITTED] T6166.433

[GRAPHIC] [TIFF OMITTED] T6166.434

[GRAPHIC] [TIFF OMITTED] T6166.435

[GRAPHIC] [TIFF OMITTED] T6166.436

[GRAPHIC] [TIFF OMITTED] T6166.437

[GRAPHIC] [TIFF OMITTED] T6166.438

[GRAPHIC] [TIFF OMITTED] T6166.439

[GRAPHIC] [TIFF OMITTED] T6166.440

[GRAPHIC] [TIFF OMITTED] T6166.441

[GRAPHIC] [TIFF OMITTED] T6166.442

[GRAPHIC] [TIFF OMITTED] T6166.443

[GRAPHIC] [TIFF OMITTED] T6166.444

[GRAPHIC] [TIFF OMITTED] T6166.445

[GRAPHIC] [TIFF OMITTED] T6166.446

[GRAPHIC] [TIFF OMITTED] T6166.447

[GRAPHIC] [TIFF OMITTED] T6166.448

[GRAPHIC] [TIFF OMITTED] T6166.449

[GRAPHIC] [TIFF OMITTED] T6166.450

[GRAPHIC] [TIFF OMITTED] T6166.451

[GRAPHIC] [TIFF OMITTED] T6166.452

[GRAPHIC] [TIFF OMITTED] T6166.453

[GRAPHIC] [TIFF OMITTED] T6166.454

[GRAPHIC] [TIFF OMITTED] T6166.455

[GRAPHIC] [TIFF OMITTED] T6166.456

[GRAPHIC] [TIFF OMITTED] T6166.457

[GRAPHIC] [TIFF OMITTED] T6166.458

[GRAPHIC] [TIFF OMITTED] T6166.459

[GRAPHIC] [TIFF OMITTED] T6166.460

[GRAPHIC] [TIFF OMITTED] T6166.461

[GRAPHIC] [TIFF OMITTED] T6166.462

[GRAPHIC] [TIFF OMITTED] T6166.463

[GRAPHIC] [TIFF OMITTED] T6166.464

[GRAPHIC] [TIFF OMITTED] T6166.465

[GRAPHIC] [TIFF OMITTED] T6166.466

[GRAPHIC] [TIFF OMITTED] T6166.467

[GRAPHIC] [TIFF OMITTED] T6166.468

[GRAPHIC] [TIFF OMITTED] T6166.469

[GRAPHIC] [TIFF OMITTED] T6166.470

[GRAPHIC] [TIFF OMITTED] T6166.471

[GRAPHIC] [TIFF OMITTED] T6166.472

[GRAPHIC] [TIFF OMITTED] T6166.473

[GRAPHIC] [TIFF OMITTED] T6166.474

[GRAPHIC] [TIFF OMITTED] T6166.475

[GRAPHIC] [TIFF OMITTED] T6166.476

[GRAPHIC] [TIFF OMITTED] T6166.477

[GRAPHIC] [TIFF OMITTED] T6166.478

[GRAPHIC] [TIFF OMITTED] T6166.479

[GRAPHIC] [TIFF OMITTED] T6166.480

[GRAPHIC] [TIFF OMITTED] T6166.481

[GRAPHIC] [TIFF OMITTED] T6166.482

[GRAPHIC] [TIFF OMITTED] T6166.483

[GRAPHIC] [TIFF OMITTED] T6166.484

[GRAPHIC] [TIFF OMITTED] T6166.485

[GRAPHIC] [TIFF OMITTED] T6166.486

[GRAPHIC] [TIFF OMITTED] T6166.487

[GRAPHIC] [TIFF OMITTED] T6166.488

[GRAPHIC] [TIFF OMITTED] T6166.489

[GRAPHIC] [TIFF OMITTED] T6166.490

[GRAPHIC] [TIFF OMITTED] T6166.491

[GRAPHIC] [TIFF OMITTED] T6166.492

[GRAPHIC] [TIFF OMITTED] T6166.493

[GRAPHIC] [TIFF OMITTED] T6166.494

[GRAPHIC] [TIFF OMITTED] T6166.495

[GRAPHIC] [TIFF OMITTED] T6166.496

[GRAPHIC] [TIFF OMITTED] T6166.497

[GRAPHIC] [TIFF OMITTED] T6166.498

[GRAPHIC] [TIFF OMITTED] T6166.499

[GRAPHIC] [TIFF OMITTED] T6166.500

[GRAPHIC] [TIFF OMITTED] T6166.501

[GRAPHIC] [TIFF OMITTED] T6166.502

[GRAPHIC] [TIFF OMITTED] T6166.503

[GRAPHIC] [TIFF OMITTED] T6166.504

[GRAPHIC] [TIFF OMITTED] T6166.505

[GRAPHIC] [TIFF OMITTED] T6166.506

[GRAPHIC] [TIFF OMITTED] T6166.507

[GRAPHIC] [TIFF OMITTED] T6166.508

[GRAPHIC] [TIFF OMITTED] T6166.509

[GRAPHIC] [TIFF OMITTED] T6166.510

[GRAPHIC] [TIFF OMITTED] T6166.511

[GRAPHIC] [TIFF OMITTED] T6166.512

[GRAPHIC] [TIFF OMITTED] T6166.513

[GRAPHIC] [TIFF OMITTED] T6166.514

[GRAPHIC] [TIFF OMITTED] T6166.515

[GRAPHIC] [TIFF OMITTED] T6166.516

[GRAPHIC] [TIFF OMITTED] T6166.517

[GRAPHIC] [TIFF OMITTED] T6166.518

[GRAPHIC] [TIFF OMITTED] T6166.519

[GRAPHIC] [TIFF OMITTED] T6166.520

[GRAPHIC] [TIFF OMITTED] T6166.521

[GRAPHIC] [TIFF OMITTED] T6166.522

[GRAPHIC] [TIFF OMITTED] T6166.523

[GRAPHIC] [TIFF OMITTED] T6166.524

[GRAPHIC] [TIFF OMITTED] T6166.525

[GRAPHIC] [TIFF OMITTED] T6166.526

[GRAPHIC] [TIFF OMITTED] T6166.527

[GRAPHIC] [TIFF OMITTED] T6166.528

[GRAPHIC] [TIFF OMITTED] T6166.529

[GRAPHIC] [TIFF OMITTED] T6166.530

[GRAPHIC] [TIFF OMITTED] T6166.531

[GRAPHIC] [TIFF OMITTED] T6166.532

[GRAPHIC] [TIFF OMITTED] T6166.533

[GRAPHIC] [TIFF OMITTED] T6166.534

[GRAPHIC] [TIFF OMITTED] T6166.535

[GRAPHIC] [TIFF OMITTED] T6166.536

[GRAPHIC] [TIFF OMITTED] T6166.537

[GRAPHIC] [TIFF OMITTED] T6166.538

[GRAPHIC] [TIFF OMITTED] T6166.539

[GRAPHIC] [TIFF OMITTED] T6166.540

[GRAPHIC] [TIFF OMITTED] T6166.541

[GRAPHIC] [TIFF OMITTED] T6166.542

[GRAPHIC] [TIFF OMITTED] T6166.543

[GRAPHIC] [TIFF OMITTED] T6166.544

[GRAPHIC] [TIFF OMITTED] T6166.545

[GRAPHIC] [TIFF OMITTED] T6166.546

[GRAPHIC] [TIFF OMITTED] T6166.547

[GRAPHIC] [TIFF OMITTED] T6166.548

[GRAPHIC] [TIFF OMITTED] T6166.549

[GRAPHIC] [TIFF OMITTED] T6166.550

[GRAPHIC] [TIFF OMITTED] T6166.551

[GRAPHIC] [TIFF OMITTED] T6166.552

[GRAPHIC] [TIFF OMITTED] T6166.553

[GRAPHIC] [TIFF OMITTED] T6166.554

[GRAPHIC] [TIFF OMITTED] T6166.555

[GRAPHIC] [TIFF OMITTED] T6166.556

[GRAPHIC] [TIFF OMITTED] T6166.557

[GRAPHIC] [TIFF OMITTED] T6166.558

[GRAPHIC] [TIFF OMITTED] T6166.559

[GRAPHIC] [TIFF OMITTED] T6166.560

[GRAPHIC] [TIFF OMITTED] T6166.561

[GRAPHIC] [TIFF OMITTED] T6166.562

[GRAPHIC] [TIFF OMITTED] T6166.563

[GRAPHIC] [TIFF OMITTED] T6166.564

[GRAPHIC] [TIFF OMITTED] T6166.565

[GRAPHIC] [TIFF OMITTED] T6166.566

[GRAPHIC] [TIFF OMITTED] T6166.567

[GRAPHIC] [TIFF OMITTED] T6166.568

[GRAPHIC] [TIFF OMITTED] T6166.569

[GRAPHIC] [TIFF OMITTED] T6166.570

[GRAPHIC] [TIFF OMITTED] T6166.571

[GRAPHIC] [TIFF OMITTED] T6166.572

[GRAPHIC] [TIFF OMITTED] T6166.573

[GRAPHIC] [TIFF OMITTED] T6166.574

[GRAPHIC] [TIFF OMITTED] T6166.575

[GRAPHIC] [TIFF OMITTED] T6166.576

[GRAPHIC] [TIFF OMITTED] T6166.577

[GRAPHIC] [TIFF OMITTED] T6166.578

[GRAPHIC] [TIFF OMITTED] T6166.579

[GRAPHIC] [TIFF OMITTED] T6166.580

[GRAPHIC] [TIFF OMITTED] T6166.581

[GRAPHIC] [TIFF OMITTED] T6166.582

[GRAPHIC] [TIFF OMITTED] T6166.583

[GRAPHIC] [TIFF OMITTED] T6166.584

[GRAPHIC] [TIFF OMITTED] T6166.585

[GRAPHIC] [TIFF OMITTED] T6166.586

[GRAPHIC] [TIFF OMITTED] T6166.587

[GRAPHIC] [TIFF OMITTED] T6166.588

[GRAPHIC] [TIFF OMITTED] T6166.589

[GRAPHIC] [TIFF OMITTED] T6166.590

[GRAPHIC] [TIFF OMITTED] T6166.591

[GRAPHIC] [TIFF OMITTED] T6166.592

[GRAPHIC] [TIFF OMITTED] T6166.593

[GRAPHIC] [TIFF OMITTED] T6166.594

[GRAPHIC] [TIFF OMITTED] T6166.595

[GRAPHIC] [TIFF OMITTED] T6166.596

[GRAPHIC] [TIFF OMITTED] T6166.597

[GRAPHIC] [TIFF OMITTED] T6166.598

[GRAPHIC] [TIFF OMITTED] T6166.599

[GRAPHIC] [TIFF OMITTED] T6166.600

[GRAPHIC] [TIFF OMITTED] T6166.601

[GRAPHIC] [TIFF OMITTED] T6166.602

[GRAPHIC] [TIFF OMITTED] T6166.603

[GRAPHIC] [TIFF OMITTED] T6166.604

[GRAPHIC] [TIFF OMITTED] T6166.605

[GRAPHIC] [TIFF OMITTED] T6166.606

[GRAPHIC] [TIFF OMITTED] T6166.607

[GRAPHIC] [TIFF OMITTED] T6166.608

[GRAPHIC] [TIFF OMITTED] T6166.609

[GRAPHIC] [TIFF OMITTED] T6166.610

[GRAPHIC] [TIFF OMITTED] T6166.611

[GRAPHIC] [TIFF OMITTED] T6166.612

[GRAPHIC] [TIFF OMITTED] T6166.613

[GRAPHIC] [TIFF OMITTED] T6166.614

[GRAPHIC] [TIFF OMITTED] T6166.615

[GRAPHIC] [TIFF OMITTED] T6166.616

[GRAPHIC] [TIFF OMITTED] T6166.617

[GRAPHIC] [TIFF OMITTED] T6166.618

[GRAPHIC] [TIFF OMITTED] T6166.619

[GRAPHIC] [TIFF OMITTED] T6166.620

[GRAPHIC] [TIFF OMITTED] T6166.621

[GRAPHIC] [TIFF OMITTED] T6166.622

[GRAPHIC] [TIFF OMITTED] T6166.623

[GRAPHIC] [TIFF OMITTED] T6166.624

[GRAPHIC] [TIFF OMITTED] T6166.625

[GRAPHIC] [TIFF OMITTED] T6166.626

[GRAPHIC] [TIFF OMITTED] T6166.627

[GRAPHIC] [TIFF OMITTED] T6166.628

[GRAPHIC] [TIFF OMITTED] T6166.629

[GRAPHIC] [TIFF OMITTED] T6166.630

[GRAPHIC] [TIFF OMITTED] T6166.631

[GRAPHIC] [TIFF OMITTED] T6166.632

[GRAPHIC] [TIFF OMITTED] T6166.633

[GRAPHIC] [TIFF OMITTED] T6166.634

[GRAPHIC] [TIFF OMITTED] T6166.635

[GRAPHIC] [TIFF OMITTED] T6166.636

[GRAPHIC] [TIFF OMITTED] T6166.637

[GRAPHIC] [TIFF OMITTED] T6166.638

[GRAPHIC] [TIFF OMITTED] T6166.639

[GRAPHIC] [TIFF OMITTED] T6166.640

[GRAPHIC] [TIFF OMITTED] T6166.641

[GRAPHIC] [TIFF OMITTED] T6166.642

[GRAPHIC] [TIFF OMITTED] T6166.643

[GRAPHIC] [TIFF OMITTED] T6166.644

[GRAPHIC] [TIFF OMITTED] T6166.645

[GRAPHIC] [TIFF OMITTED] T6166.646

[GRAPHIC] [TIFF OMITTED] T6166.647

[GRAPHIC] [TIFF OMITTED] T6166.648

[GRAPHIC] [TIFF OMITTED] T6166.649

[GRAPHIC] [TIFF OMITTED] T6166.650

[GRAPHIC] [TIFF OMITTED] T6166.651

[GRAPHIC] [TIFF OMITTED] T6166.652

[GRAPHIC] [TIFF OMITTED] T6166.653

[GRAPHIC] [TIFF OMITTED] T6166.654

[GRAPHIC] [TIFF OMITTED] T6166.655

[GRAPHIC] [TIFF OMITTED] T6166.656

[GRAPHIC] [TIFF OMITTED] T6166.657

[GRAPHIC] [TIFF OMITTED] T6166.658

[GRAPHIC] [TIFF OMITTED] T6166.659

[GRAPHIC] [TIFF OMITTED] T6166.660

[GRAPHIC] [TIFF OMITTED] T6166.661

[GRAPHIC] [TIFF OMITTED] T6166.662

[GRAPHIC] [TIFF OMITTED] T6166.663

[GRAPHIC] [TIFF OMITTED] T6166.664

[GRAPHIC] [TIFF OMITTED] T6166.665

[GRAPHIC] [TIFF OMITTED] T6166.666

[GRAPHIC] [TIFF OMITTED] T6166.667

[GRAPHIC] [TIFF OMITTED] T6166.668

[GRAPHIC] [TIFF OMITTED] T6166.669

[GRAPHIC] [TIFF OMITTED] T6166.670

[GRAPHIC] [TIFF OMITTED] T6166.671

[GRAPHIC] [TIFF OMITTED] T6166.672

[GRAPHIC] [TIFF OMITTED] T6166.673

[GRAPHIC] [TIFF OMITTED] T6166.674

[GRAPHIC] [TIFF OMITTED] T6166.675

[GRAPHIC] [TIFF OMITTED] T6166.676

[GRAPHIC] [TIFF OMITTED] T6166.677

[GRAPHIC] [TIFF OMITTED] T6166.678

[GRAPHIC] [TIFF OMITTED] T6166.679

[GRAPHIC] [TIFF OMITTED] T6166.680

[GRAPHIC] [TIFF OMITTED] T6166.681

[GRAPHIC] [TIFF OMITTED] T6166.682

[GRAPHIC] [TIFF OMITTED] T6166.683

[GRAPHIC] [TIFF OMITTED] T6166.684

[GRAPHIC] [TIFF OMITTED] T6166.685

[GRAPHIC] [TIFF OMITTED] T6166.686

[GRAPHIC] [TIFF OMITTED] T6166.687

[GRAPHIC] [TIFF OMITTED] T6166.688

[GRAPHIC] [TIFF OMITTED] T6166.689

[GRAPHIC] [TIFF OMITTED] T6166.690

[GRAPHIC] [TIFF OMITTED] T6166.691

[GRAPHIC] [TIFF OMITTED] T6166.692

[GRAPHIC] [TIFF OMITTED] T6166.693

[GRAPHIC] [TIFF OMITTED] T6166.694

[GRAPHIC] [TIFF OMITTED] T6166.695

[GRAPHIC] [TIFF OMITTED] T6166.696

[GRAPHIC] [TIFF OMITTED] T6166.697

[GRAPHIC] [TIFF OMITTED] T6166.698

[GRAPHIC] [TIFF OMITTED] T6166.699

[GRAPHIC] [TIFF OMITTED] T6166.700

[GRAPHIC] [TIFF OMITTED] T6166.701

[GRAPHIC] [TIFF OMITTED] T6166.702

[GRAPHIC] [TIFF OMITTED] T6166.703

[GRAPHIC] [TIFF OMITTED] T6166.704

[GRAPHIC] [TIFF OMITTED] T6166.705

[GRAPHIC] [TIFF OMITTED] T6166.706

[GRAPHIC] [TIFF OMITTED] T6166.707

[GRAPHIC] [TIFF OMITTED] T6166.708

[GRAPHIC] [TIFF OMITTED] T6166.709

[GRAPHIC] [TIFF OMITTED] T6166.710

[GRAPHIC] [TIFF OMITTED] T6166.711

[GRAPHIC] [TIFF OMITTED] T6166.712

[GRAPHIC] [TIFF OMITTED] T6166.713

[GRAPHIC] [TIFF OMITTED] T6166.714

[GRAPHIC] [TIFF OMITTED] T6166.715

[GRAPHIC] [TIFF OMITTED] T6166.716

[GRAPHIC] [TIFF OMITTED] T6166.717

[GRAPHIC] [TIFF OMITTED] T6166.718

[GRAPHIC] [TIFF OMITTED] T6166.719

[GRAPHIC] [TIFF OMITTED] T6166.720

[GRAPHIC] [TIFF OMITTED] T6166.721

[GRAPHIC] [TIFF OMITTED] T6166.722

[GRAPHIC] [TIFF OMITTED] T6166.723

[GRAPHIC] [TIFF OMITTED] T6166.724

[GRAPHIC] [TIFF OMITTED] T6166.725

[GRAPHIC] [TIFF OMITTED] T6166.726

[GRAPHIC] [TIFF OMITTED] T6166.727

[GRAPHIC] [TIFF OMITTED] T6166.728

[GRAPHIC] [TIFF OMITTED] T6166.729

[GRAPHIC] [TIFF OMITTED] T6166.730

[GRAPHIC] [TIFF OMITTED] T6166.731

[GRAPHIC] [TIFF OMITTED] T6166.732

[GRAPHIC] [TIFF OMITTED] T6166.733

[GRAPHIC] [TIFF OMITTED] T6166.734

[GRAPHIC] [TIFF OMITTED] T6166.735

[GRAPHIC] [TIFF OMITTED] T6166.736

[GRAPHIC] [TIFF OMITTED] T6166.737

[GRAPHIC] [TIFF OMITTED] T6166.738

[GRAPHIC] [TIFF OMITTED] T6166.739

[GRAPHIC] [TIFF OMITTED] T6166.740

[GRAPHIC] [TIFF OMITTED] T6166.741

[GRAPHIC] [TIFF OMITTED] T6166.742

[GRAPHIC] [TIFF OMITTED] T6166.743

[GRAPHIC] [TIFF OMITTED] T6166.744

[GRAPHIC] [TIFF OMITTED] T6166.745

[GRAPHIC] [TIFF OMITTED] T6166.746

[GRAPHIC] [TIFF OMITTED] T6166.747

[GRAPHIC] [TIFF OMITTED] T6166.748

[GRAPHIC] [TIFF OMITTED] T6166.749

[GRAPHIC] [TIFF OMITTED] T6166.750

[GRAPHIC] [TIFF OMITTED] T6166.751

[GRAPHIC] [TIFF OMITTED] T6166.752

[GRAPHIC] [TIFF OMITTED] T6166.753

[GRAPHIC] [TIFF OMITTED] T6166.754

[GRAPHIC] [TIFF OMITTED] T6166.755

[GRAPHIC] [TIFF OMITTED] T6166.756

[GRAPHIC] [TIFF OMITTED] T6166.757

[GRAPHIC] [TIFF OMITTED] T6166.758

[GRAPHIC] [TIFF OMITTED] T6166.759

[GRAPHIC] [TIFF OMITTED] T6166.760

[GRAPHIC] [TIFF OMITTED] T6166.761

[GRAPHIC] [TIFF OMITTED] T6166.762

[GRAPHIC] [TIFF OMITTED] T6166.763

[GRAPHIC] [TIFF OMITTED] T6166.764

[GRAPHIC] [TIFF OMITTED] T6166.765

[GRAPHIC] [TIFF OMITTED] T6166.766

[GRAPHIC] [TIFF OMITTED] T6166.767

[GRAPHIC] [TIFF OMITTED] T6166.768

[GRAPHIC] [TIFF OMITTED] T6166.769

[GRAPHIC] [TIFF OMITTED] T6166.770

[GRAPHIC] [TIFF OMITTED] T6166.771

[GRAPHIC] [TIFF OMITTED] T6166.772

[GRAPHIC] [TIFF OMITTED] T6166.773

[GRAPHIC] [TIFF OMITTED] T6166.774

[GRAPHIC] [TIFF OMITTED] T6166.775

[GRAPHIC] [TIFF OMITTED] T6166.776

[GRAPHIC] [TIFF OMITTED] T6166.777

[GRAPHIC] [TIFF OMITTED] T6166.778

[GRAPHIC] [TIFF OMITTED] T6166.779

[GRAPHIC] [TIFF OMITTED] T6166.780

[GRAPHIC] [TIFF OMITTED] T6166.781

[GRAPHIC] [TIFF OMITTED] T6166.782

[GRAPHIC] [TIFF OMITTED] T6166.783

[GRAPHIC] [TIFF OMITTED] T6166.784

[GRAPHIC] [TIFF OMITTED] T6166.785

[GRAPHIC] [TIFF OMITTED] T6166.786

[GRAPHIC] [TIFF OMITTED] T6166.787

[GRAPHIC] [TIFF OMITTED] T6166.788

[GRAPHIC] [TIFF OMITTED] T6166.789

[GRAPHIC] [TIFF OMITTED] T6166.790

[GRAPHIC] [TIFF OMITTED] T6166.791

[GRAPHIC] [TIFF OMITTED] T6166.792

[GRAPHIC] [TIFF OMITTED] T6166.793

[GRAPHIC] [TIFF OMITTED] T6166.794

[GRAPHIC] [TIFF OMITTED] T6166.795

[GRAPHIC] [TIFF OMITTED] T6166.796

[GRAPHIC] [TIFF OMITTED] T6166.797

[GRAPHIC] [TIFF OMITTED] T6166.798

[GRAPHIC] [TIFF OMITTED] T6166.799

[GRAPHIC] [TIFF OMITTED] T6166.800

[GRAPHIC] [TIFF OMITTED] T6166.801

[GRAPHIC] [TIFF OMITTED] T6166.802

[GRAPHIC] [TIFF OMITTED] T6166.803

[GRAPHIC] [TIFF OMITTED] T6166.804

[GRAPHIC] [TIFF OMITTED] T6166.805

[GRAPHIC] [TIFF OMITTED] T6166.806

[GRAPHIC] [TIFF OMITTED] T6166.807

[GRAPHIC] [TIFF OMITTED] T6166.808

   Submissions for the Record Not Printed Due to Voluminous Nature, 
  Previously Printed by an Agency of the Federal Government or Other 
              Criteria Determined by the Committee, List:
    ACLU, ``Ending the School-to-Prison Pipeline''
        http://www.aclu.org/files/assets/
        aclu_statement_for_sjc_subcomm_
        hearing_on_the_school_to_prison_pipeline_12_2012.pdf
    Vera Institute Testimony
        http://www.vera.org/sites/default/files/resources/downloads/
        michael-jacobson-testimony-school-to-prison-pipeline.pdf

                                   



</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
